<html>
<title> - GOVERNMENT 2.0: GAO UNVEILS NEW DUPLICABLE PROGRAM REPORT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       GOVERNMENT 2.0: GAO UNVEILS NEW DUPLICABLE PROGRAM REPORT

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2012

                               __________

                           Serial No. 112-131

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2012................................     1
Statement of:
    Dodaro, Gene L., Comptroller General of the United States, 
      U.S. Government Accountability Office, accompanied by 
      Patricia Dalton, Chief Operating Officer, U.S. Government 
      Accountability Office, and Janet St. Laurent, Managing 
      Director of Defense Capabilities and Management, U.S. 
      Government Accountability Office; and Hon. Tom Coburn, 
      M.D., a U.S. Senator from the State of Oklahoma............     8
        Dodaro, Gene L...........................................     8
        Coburn, Hon. Tom, M.D....................................    75
Letters, statements, etc., submitted for the record by:
    Coburn, Hon. Tom, M.D., a U.S. Senator from the State of 
      Oklahoma, prepared statement of............................    77
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   114
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     5
    Dodaro, Gene L., Comptroller General of the United States, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    11


       GOVERNMENT 2.0: GAO UNVEILS NEW DUPLICABLE PROGRAM REPORT

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, McHenry, Jordan, Chaffetz, 
Lankford, DesJarlais, Farenthold, Kelly, Cummings, Maloney, 
Norton, Kucinich, Tierney, Cooper, Connolly, Quigley, and 
Murphy.
    Staff present: Ali Ahmad, communications advisor; Kurt 
Bardella, senior policy advisor; Robert Borden, general 
counsel; Lawrence J. Brady, staff director; John Cuaderes, 
deputy staff director; Adam P. Fromm, director of Member 
services and committee operations; Jennifer Hemingway, senior 
professional staff member; Christopher Hixon, deputy chief 
counsel, oversight; Justin LoFranco, press assistant; Mark D. 
Marin, director of oversight; Tegan Millspaw, research analyst; 
Lisa Cody, minority investigator; Kevin Corbin, minority deputy 
clerk; Ashley Etienne, minority director of communications; 
Jennifer Hoffman, minority press secretary; Carla Hultberg, 
minority chief clerk; Leah Perry, minority chief oversight 
counsel; Dave Rapallo, minority staff director; and Mark 
Stephenson, minority senior policy advisor/legislative 
director.
    Chairman Issa. The Oversight Committee will come to order.
    We exist for two fundamental purposes: first, Americans 
have a right to know the money Washington takes from them is 
well spent and, second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights.
    Our solemn responsibility is to hold government accountable 
to the taxpayers because taxpayers have a right to know what 
they get from their government. It is our job to work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
Federal bureaucracy.
    Today we are joined for just that purpose. The 2011 report 
from the GAO identified 81 areas of duplication, overlap, and 
fragmentation throughout the government. This year the GAO has 
identified 51 new areas on top of the 81. Let's make it very 
clear: we are going the wrong direction, not the right 
direction.
    This committee is well known for looking at the party in 
power, the Office of the President, and calling strikes and 
balls. In this case, the President has talked the talk; he 
hasn't walked the walk. But let me make it very clear here 
today: he is not the first president to talk about 
organizational efficiency and, at the end of his 
administration, have less of it, not more of it.
    In fact, this problem began long before President George W. 
Bush and it will not end until some fundamental changes occur.
    First of all, Congress is to blame. We create the 
stovepipes by our very nature. We have divided the Congress 
along historic lines for authorization and appropriation. That 
is all well and good to have expertise, but at the end of the 
day we do not have a committee on consolidation; we do not 
have, if you will, a standing Hoover Commission. As a result, 
fiefdoms build up here in the House that in fact protect 
redundant programs because they are under that authorization or 
under that cardinalship of appropriations.
    Second, it is clear this President owns these 51 new areas, 
the 81 many of whom were not dealt with, and ultimately he owns 
the fact that he asked for reorganizational authority and 
offered us but a de minimis addition of a 23rd cabinet level 
position. We have to think bigger than that. The President and 
this administration has to be convinced to think much, much 
larger.
    Ultimately, real savings, as we will hear today from Mr. 
Dodaro, will come from major changes in government and how we 
think, changes in the House and the Senate, changes in the 
executive branch.
    Last, if we are to have a 21st century success story of 
making government as lean as it can be in the delivery of 
process, we are going to have to call out, and I will in a 
future hearing, companies like Lockheed Martin, Northrop 
Grumman, Boeing, Raytheon, General Dynamics, Booz Allen, and 
many, many more that we rely on for government contracting. In 
fact, this entire hearing could end before we could name the 
names of all the government contractors America employs, 
because ultimately those contractors also have a vested 
interest in the pot of money that they have or sometimes 4, 5, 
6, 10 pots of money to do the same job for different parts of 
government.
    As we explore whether in fact government gets a better deal 
by the same contractor having five different contracts, five 
slightly different instructions, producing often different 
software with different details, or in fact whether contractors 
need to be part of the solution in having a proactive 
responsibility to find existing programs at least within their 
own company and their partnerships. That is just the beginning 
of the solution.
    I will, in the days to come, upon conclusion of a number of 
additional hearings, be calling in no uncertain terms for a 
Hoover commission. I will be calling for a thorough 
reorganization of government. And let me go on record here 
today: the President's request for reorganizational authority 
is dead on arrival in this committee unless the administration 
is willing to be much bigger in their thought.
    If the administration, instead of asking for authority, 
delivering us virtually no facts and the facts they deliver 
showing a very small reorg for the sake of saying there is a 
reorg, if they are not willing to talk about attacking the very 
problems we will see here today organizationally, then we have 
little to talk about.
    My first question to the Honorable Gene Dodaro will in fact 
be, what is the status of the now-famous Goldwater-Nichols? 
What are the failures of it? What are the successes of it? And 
how can we begin looking at that kind of cross-government 
thinking in a way that will guaranty, if not next year, at 
least in years to come, these lists will be smaller to begin 
with and will have taken care of far more of their past sins?
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Thank you, Mr. Dodaro. We welcome you back. And I thank GAO 
for testifying here today.
    Because of our committee's uniquely broad jurisdiction, we 
have a tremendous opportunity to examine programs across the 
entire Federal Government. Today GAO is issuing a report to 
help us determine the most promising ways to improve the 
effectiveness and efficiency of these programs.
    In my opinion, our committee does its best work when we are 
guided by a sincere effort to get more value out of Federal 
programs on behalf of the American people. I hope we can do 
that today.
    For this reason, I hope we steer clear of politically 
charged rhetoric that condemns the entire government as being 
obese or bloated, and I hope we honor the millions of Federal 
workers who do so much for this country on a daily basis.
    One of the most compelling facts in the GAO report is that 
Congress has a much worse record than the administration in 
implementing GAO's recommendations. Last year GAO identified 
176 specific actions that Congress and the executive branch 
could take to address duplication in government programs and 
enhance taxpayer revenues. This year GAO reports that the 
administration has fully or partially implemented 76 percent of 
the recommendations relating to executive branch actions. The 
Congress has fully or partially implemented only 38 percent of 
the recommendations for legislative reform.
    For example, GAO has reported that oil and gas companies, 
which are now making the highest profits of any industry in 
history, currently pay no royalties on some of their leases 
with the U.S. Government in the Gulf of Mexico. Even Chairman 
Issa has recognized this problem, estimating in a previous 
report that this unintended loophole is costing the American 
people up to $80 billion in foregone revenue.
    Although Democrats have offered legislation to address this 
fundamental injustice, House Republicans have repeatedly 
rejected it. Although it is appropriate to examine the 
administration's record on these issues, I hope we will also 
look at our own record right here in Congress.
    With respect to the recommendations for the executive 
branch, GAO reports that Federal agencies have taken 
substantial action to address them. For example, the 
administration has taken steps to reduce improper payments by 
the Federal Government. Agencies have also achieved $1.5 
billion in savings through the disposal of excess or 
underutilized Federal buildings, as well as identifying 
additional savings opportunities.
    In addition, the President has proposed reorganizing and 
consolidating a number of our Nation's trade agencies into a 
single department to improve coordination and effectiveness, 
while saving billions of dollars in the process.
    Of course, GAO's reports finds that many challenges still 
remain. For example, the Departments of Defense and Veterans 
Affairs need to improve integration of health care and case 
management to reduce duplication and provide more effective 
assistance to our service members, particularly as they leave 
active duty and transition into the VA system. This is 
something that our National Security Subcommittee has focused 
in on closely, and I know their efforts will continue.
    So I look forward to today's testimony from GAO, as well as 
the testimony from Senator Coburn, who has also been very 
active on these issues.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 74037.001

[GRAPHIC] [TIFF OMITTED] 74037.002

    Mr. Quigley. Mr. Cummings, would the gentleman yield?
    Mr. Cummings. I yield.
    Mr. Quigley. Thank you to the ranking member and the 
chairman.
    When I was a county commissioner I wrote eight reports 
about this, about government efficiency and what we can do, and 
it reminded me of something very political, what the President 
said when he accepted the nomination in Denver. He said, in the 
middle of the speech, and it didn't get a lot of attention, he 
said we're not the far right who thinks that government doesn't 
matter and we can't be the far left that thinks we can tax and 
spend our way out of all of our problems, because we need to 
meet in the middle, streamline and consolidate our government 
and make it the most efficient.
    So, to me, that is what both the chairman and the ranking 
member were alluding to. We can do this on a bipartisan basis 
by asking ourselves just the following question, what should we 
do, who should do it, and how should it be done, when we look 
at any government function, not because government doesn't 
matter, but because the mission matters and we can operate it 
more efficiently.
    Thank you.
    Chairman Issa. Thank you.
    Would the ranking member further yield?
    Mr. Cummings. Definitely.
    Chairman Issa. You brought up in your opening statement, I 
think it is noteworthy, even though it is a little off subject, 
the history of the MMS flawed contracts. That is an area in 
which we have tried to operate on a bipartisan basis.
    I would offer to the ranking member that if the pieces of 
legislation that have been offered, most of which that I have 
seen duplicate ones that were offered and went nowhere under 
the 4-years of Speaker Pelosi, because this problem goes all 
the way back to the Clinton administration; not to them 
personally, but to actions of nonpolitical appointees during 
that time.
    If you can in fact bring to the committee agreement by this 
staff that we have a piece of legislation which can pass the 
contract sanctity test, I am perfectly happy to hold a hearing 
on it and, if we can reach that consensus, a markup. It has 
been vexing to us on both sides. We pushed hard under President 
Bush to try to get a solution prior to some of these companies 
being sold and so on.
    But I stand with the ranking member that this is still an 
area that if we can find something which we are not simply 
passing a law that ultimately would be struck down in the court 
based on the contract sanctity rule, I am there for you and 
would love to have a further hearing on it.
    Mr. Cummings. With that, I appreciate it. We will work with 
you to make that happen. Matter of fact, I welcome the 
bipartisanship.
    Chairman Issa. I thank the gentleman.
    With that, having settled at least $60 billion to $80 
billion worth of past failures right here----
    Mr. Cummings. In 1 minute.
    Chairman Issa [continuing]. In 1 minute, we now recognize 
the Honorable Gene Dodaro, Comptroller General of the United 
States, returning here for, I should have it here, about the 
fifth or sixth time in this role and, of course, several times 
before he had the job. He is accompanied today by Ms. Patricia 
Dalton, who is Chief Operating Officer of the GAO. 
Additionally, Ms. Janet St. Laurent, who is Managing Director 
of Defense Capabilities and Management at the GAO.
    I understand that Ms. Dalton and Ms. St. Laurent do not 
have opening statements, but to make it clear that they could 
answer questions directly or obviously advise the general. We 
will have all of you sworn in.
    Additionally, an additional witness is expected about 
halfway through this process, and that would be our friend and 
colleague on waste control, Senator Tom Coburn of Oklahoma.
    So, with that, would you please rise to take the oath?
    [Witnesses sworn.]
    Chairman Issa. Let the record indicate all three answered 
in the affirmative.
    Unlike some of our hearings, we are not taxed for time in 
the time that you choose to begin the briefing. You are an 
experienced witness who knows that if we, the Congress, want 
you to give a prepared statement, you go ahead and give it. 
Take as much time as you want. Quite frankly, I would love to 
get to questions quickly, but at the same time this is all 
about your report and the message you want to deliver to us.
    The general is recognized.

STATEMENTS OF GENE L. DODARO, COMPTROLLER GENERAL OF THE UNITED 
 STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
   PATRICIA DALTON, CHIEF OPERATING OFFICER, U.S. GOVERNMENT 
ACCOUNTABILITY OFFICE, AND JANET ST. LAURENT, MANAGING DIRECTOR 
    OF DEFENSE CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT 
   ACCOUNTABILITY OFFICE; AND HON. TOM COBURN, M.D., A U.S. 
               SENATOR FROM THE STATE OF OKLAHOMA

                  STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman. I am very 
pleased to be here today before the committee, Ranking Member 
Cummings, members of the committee, to talk about GAO's body of 
work on overlap, duplication, and fragmentation in the Federal 
Government, and opportunities to achieve greater efficiencies 
and effectiveness in Government. Our report this year, for 
2012, like the report last year, touches on many parts of the 
Federal Government, most civilian major departments and 
agencies, as well as the Defense Department.
    In Defense, for example, one of the areas we point out is 
unmanned aircraft systems, of which the Department plans to 
spend over $37 billion over the next 4 years to purchase not 
only aircraft, but payloads, which are operating systems, 
sensors, etc., as well as ground control stations.
    Now, we found that the service-centered requirements, 
rather than an effective overall Department strategy, is 
causing a great degree of overlap in this effort. For example, 
the Navy was unable to provide us justification why it was 
going to develop an aircraft similar to the Air Force Global 
Hawk aircraft, as opposed to buying additional Global Hawk 
aircrafts. And also the Army and Navy are separately pursuing 
software for cargo and surveillance technologies that are 
likely to produce similar requirements going forward.
    So we have made a number of recommendations to strengthen 
management of this program. There are huge opportunities for 
significant savings if the Department can better manage these 
programs and focus on commonality of requirements and making 
sure that there is effective management of this program. This 
is especially important since, in the new defense strategy, 
there is going to be greater reliance on unmanned aircraft 
systems. We point out in our report the same things are true in 
the Department's efforts for electronic warfare and also 
countermeasures for improvised explosive devices.
    Now, on the civilian front, one good example is in the 
housing area, which is a new area for this year. We point out 
there are over 20 different entities managing over 160 
different programs, tax expenditures and other activities to 
promote home ownership and to provide rental support to 
Americans. One area that we have singled out this year for 
consolidation potential is in the areas involving the 
Agriculture Department and the Housing Department.
    Now, in 2009 you have eight times as many single-family 
home loans given to economically distressed rural communities 
by HUD than you do by Agriculture. Conversely, Agriculture has 
given many of its loans near urban areas. In fact, 56 percent 
of them in 2009 were given in metropolitan counties. So there 
are opportunities here. The administration has a task force 
they are putting together to look at the housing areas. We are 
looking more closely at it. But I think that is one area that 
is very ripe for potential consolidation and streamlining 
activities.
    Also, there are many support operations of the Federal 
Government where there is a need for streamlining and 
efficiency. For example, we looked at the Department of Defense 
and Energy and the Department of Homeland Security to look to 
see if they had duplicative IT investments and, indeed, we 
found 37 different areas within Defense and Energy alone that 
were potentially duplicative IT investments, and those 
investments represented over $1 billion in funding for those 
areas. We didn't find any on our own in the Department of 
Homeland Security, but they found some on their own that saved 
$41 million and identified other opportunities.
    There are also opportunities we found in facility security 
assessments. Agencies were doing their own facility security 
investments while also paying the Department of Homeland 
Security Federal Protective Service for doing security 
assessments that they weren't doing, so there was duplication 
there.
    The same thing is true in background investigations for 
security clearances. We find a number of areas where agencies 
were standing up on their own case management and adjudication 
systems, rather than a shared common system across the Federal 
Government, so that there was redundancies there and money 
spent that did not have to be spent.
    Now, like last year's report, in addition to overlap, 
duplication, and fragmentation, we highlight additional cost 
savings opportunities and opportunities for revenue 
enhancements. For example, in cost savings, there are billions 
of dollars that could be saved through wider use of information 
technology to deal with improper payments in the Medicare and 
Medicaid areas.
    There are also refinements that could be made in the 
process by which there are adjustments made to the Medicare 
advantage payments based upon the diagnosis given beneficiaries 
and the differences between their coding systems and the fee-
for-service system. We have estimated that could be between 
$1.2 billion and $2.7 billion right there.
    On the revenue enhancement side, we point out many 
opportunities such as the potential for selling excess uranium 
inventories that the Department of Defense have. There are user 
fees that could be adjusted to be more contemporary for 
international travelers coming into the country that could take 
away from the need to use general appropriations to pay for 
those activities.
    And there are many opportunities for the Internal Revenue 
Service to deal with tax enforcement of what is now estimated 
to be a $385 billion gap between taxes owed under the current 
system and taxes paid. That is up from $290 billion the last 
time I appeared before this committee. So we recommend a number 
of activities in those areas.
    In addition, we published a separate report, Mr. Chairman, 
as you alluded to in your statement and Representative 
Cummings, about progress from last year, and we found, of the 
81 areas, 4 had been fully addressed, 60 had been partially 
addressed, and 17 had not been addressed.
    So there are many opportunities. We think collectively, 
through the opportunities pointed out in our report last year 
and the new ones this year, there are tens of billions of 
dollars that could be saved and, more importantly, more 
effective and streamlined government serving the American 
people.
    So I look forward to answering your questions and I 
appreciate the opportunity to be here today. So thank you very 
much.
    [The prepared statement of Mr. Dodaro follows:]
    [GRAPHIC] [TIFF OMITTED] 74037.003
    
    [GRAPHIC] [TIFF OMITTED] 74037.004
    
    [GRAPHIC] [TIFF OMITTED] 74037.005
    
    [GRAPHIC] [TIFF OMITTED] 74037.006
    
    [GRAPHIC] [TIFF OMITTED] 74037.007
    
    [GRAPHIC] [TIFF OMITTED] 74037.008
    
    [GRAPHIC] [TIFF OMITTED] 74037.009
    
    [GRAPHIC] [TIFF OMITTED] 74037.010
    
    [GRAPHIC] [TIFF OMITTED] 74037.011
    
    [GRAPHIC] [TIFF OMITTED] 74037.012
    
    [GRAPHIC] [TIFF OMITTED] 74037.013
    
    [GRAPHIC] [TIFF OMITTED] 74037.014
    
    [GRAPHIC] [TIFF OMITTED] 74037.015
    
    [GRAPHIC] [TIFF OMITTED] 74037.016
    
    [GRAPHIC] [TIFF OMITTED] 74037.017
    
    [GRAPHIC] [TIFF OMITTED] 74037.018
    
    [GRAPHIC] [TIFF OMITTED] 74037.019
    
    [GRAPHIC] [TIFF OMITTED] 74037.020
    
    [GRAPHIC] [TIFF OMITTED] 74037.021
    
    [GRAPHIC] [TIFF OMITTED] 74037.022
    
    [GRAPHIC] [TIFF OMITTED] 74037.023
    
    [GRAPHIC] [TIFF OMITTED] 74037.024
    
    [GRAPHIC] [TIFF OMITTED] 74037.025
    
    [GRAPHIC] [TIFF OMITTED] 74037.026
    
    [GRAPHIC] [TIFF OMITTED] 74037.027
    
    [GRAPHIC] [TIFF OMITTED] 74037.028
    
    [GRAPHIC] [TIFF OMITTED] 74037.029
    
    [GRAPHIC] [TIFF OMITTED] 74037.030
    
    [GRAPHIC] [TIFF OMITTED] 74037.031
    
    [GRAPHIC] [TIFF OMITTED] 74037.032
    
    [GRAPHIC] [TIFF OMITTED] 74037.033
    
    [GRAPHIC] [TIFF OMITTED] 74037.034
    
    [GRAPHIC] [TIFF OMITTED] 74037.035
    
    [GRAPHIC] [TIFF OMITTED] 74037.036
    
    [GRAPHIC] [TIFF OMITTED] 74037.037
    
    [GRAPHIC] [TIFF OMITTED] 74037.038
    
    [GRAPHIC] [TIFF OMITTED] 74037.039
    
    [GRAPHIC] [TIFF OMITTED] 74037.040
    
    [GRAPHIC] [TIFF OMITTED] 74037.041
    
    [GRAPHIC] [TIFF OMITTED] 74037.042
    
    [GRAPHIC] [TIFF OMITTED] 74037.043
    
    [GRAPHIC] [TIFF OMITTED] 74037.044
    
    [GRAPHIC] [TIFF OMITTED] 74037.045
    
    [GRAPHIC] [TIFF OMITTED] 74037.046
    
    [GRAPHIC] [TIFF OMITTED] 74037.047
    
    [GRAPHIC] [TIFF OMITTED] 74037.048
    
    [GRAPHIC] [TIFF OMITTED] 74037.049
    
    [GRAPHIC] [TIFF OMITTED] 74037.050
    
    [GRAPHIC] [TIFF OMITTED] 74037.051
    
    Chairman Issa. Thank you. I now recognize myself for a few 
questions.
    General, you mentioned what the administration got, what 
they closed, what they partially addressed. In your estimation, 
and I say this because one of my predecessors, Mr. Waxman, held 
a hearing just to ridicule the Bush administration for how many 
they had been notified to, both IGs and GAO reports, and how 
many they closed, and didn't give much credit for the fact that 
the vast majority of them were from roughly the last year.
    What would you say was reasonable with any president to 
have closed, and how many more these that have been partially 
acted on, the 60, would you expect to make further progress and 
be completed the following year? In other words, should we look 
at a 1-year time line? And I want you to give us the 1-year 
time, but is this a satisfactory direction on these other sub-
81 where we are looking at the final report at the end of 2 or 
2\1/2\ years would look different?
    Mr. Dodaro. First, I would say last year's report was an 
accumulation of issues we identified previously as well, so I 
think there was more than 1 year opportunity to deal with some 
of those issues.
    Chairman Issa. You mean you had to reiterate what hadn't 
been fixed either by this President or his predecessor.
    Mr. Dodaro. That is correct. Or actions that we had 
recommended to the Congress and they hadn't taken action on. So 
this year we are positing new ones, so the 1-year timeframe I 
would expect would be more reasonable as a benchmark, compared 
to what you were talking about.
    But I would hope that of the 60 areas that are partially 
addressed, that many of those areas can be closed within the 
next year activities. I think it is within the grasp of the 
administration and the Congress to do that and I would hope to 
see progress.
    I was pleased that the administration required the 
agencies, through their budget submission process, to address 
all the areas that we identified in the report. So that was a 
good step. But there needs to be more assertive action, 
particularly across government. Many of the areas we identified 
transcend one department and agency, so they really require OMB 
and the administration to take a very active role in looking at 
these activities across government.
    Chairman Issa. I am going to go back to my opening 
statement and what I alluded to. I have looked at the military 
both before and after Goldwater-Nichols. Before Goldwater-
Nichols, as an Army officer, I thought Army, I bled Army, and 
all I really thought about was beat Navy, because we didn't 
care about those former Army people known as the Air Force. So 
that changed to a great extent with the requirement for senior 
officers, as part of their career, to have joint assignments, 
very often being trained in another war college or another 
commanding general staff.
    How is that going and is it a partial blueprint for a more 
governmentwide system, particularly with civil service? Do we 
need to cross-pollinate in order to drive down this tendency to 
stovepipe differences that may be of no purpose other than to 
facilitate additional cost?
    Mr. Dodaro. That clarification that you mentioned, of roles 
and responsibility and the jointness and rotations and training 
programs, joint exercises, that part of the Goldwater-Nichols 
reform has gone very well in our opinion, made a material 
difference and greatly improved the ability of the Department 
to carry out operations.
    On the side in terms of the management reforms under 
Goldwater-Nichols, the requirements part of the process, they 
introduced some joint processes. That is not going as well. In 
fact, many of the areas that I mentioned in my opening 
statement and our report are because the management of those 
joint requirements aren't going as effectively as they could 
be.
    Now, in terms of the lessons learned, on the jointness, as 
you point out, I think there are tremendous opportunities to 
use that in the rest of the Federal Government. In fact, we 
pointed out where that could be expanded with the National 
Security agencies to be more effective as well, but also with 
the civilian agencies I think it is very important.
    More and more problems are requiring a number of agencies 
to work together to resolve those problems, whether we are 
talking homeland security, food safety, or a number of other 
areas. So I think that is an excellent course to pursue, Mr. 
Chairman, and we would be happy to support you in your efforts 
in that arena.
    Chairman Issa. In my final 15 or so seconds, do you also 
support the idea that reorganization of government would need 
to be done much more in the Hoover Commission fashion, one in 
which we start off with a much larger goal, much more 
jointness, if you will, between Executive and, to be honest, 
your organization and a few Members of Congress, to set much 
bigger goals, much longer, for a long-term reorganization, 
including some of the things you are presenting today?
    Mr. Dodaro. I think that has tremendous potential and I am 
in favor of that. I think there is really no entity in the 
Federal Government focused on looking at organizational issues 
on a continual basis and having strategic planning, being able 
to look to see if we have the government that we need for the 
21st century, and I think having a commission, a Hoover type of 
commission is an excellent way to build consensus on that. 
Because if you are going to have it work effectively, you need 
consensus, and a commission is a good way to develop consensus 
and take a broad view of it, and I think looking holistically 
makes a lot of sense so you don't have unintended consequences 
as well. And there is no magic one answer in these areas; you 
can reorganize a lot of different ways.
    The commission could also focus on implementation plans. 
For example, in creating the Department of Homeland Security, 
we don't think enough attention was made to the implementation 
plans in that area. That could be rectified by a commission.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Dodaro, you testified last year about what you 
considered to be some of the low-hanging fruit in these areas. 
You talked about actions that could be taken in the short-term 
to generate large payoffs for the Federal Government in the 
long-term. One of these areas was improper payments, where you 
estimated that the Federal Government might be losing as much 
as $125 billion. How is the administration doing on that issue 
and have they taken significant steps toward addressing the 
problem?
    Mr. Dodaro. The administration has made that area a 
priority area. I think they have made some progress. They have 
collected over $1 billion in overpayments. The estimating 
process is still going on. There are still numbers of 
departments and agencies that haven't made estimates yet; they 
have set ambitious goals; they are focused on it.
    One of the things that really needs to be done is that 
there are categories of why the improper payments are being 
made and really need to get to root causes. So I think there is 
progress being made there. There are still many, many issues 
that need to be resolved, but I think the administration is 
focused on it and I am pleased with that.
    Mr. Cummings. Can you name maybe the top three that you 
know of so far or is that information available? I know you 
said not all the departments. It seems kind of difficult to 
address the issue if you don't know how much money we are 
talking about. Do you have the reasons for $125 billion of 
improper payments?
    Mr. Dodaro. Well, half of the improper payments are in the 
Medicare and Medicaid area, and there you have problems in 
terms of providers that have been found not to be proper 
providers, so there is an element of fraud in that area. There 
are systems that have been tried to be put in place, we point 
out in our report, to do post-payment claim reviews, but the 
administration hasn't entered all the data in the systems yet 
from the Medicare program, nor trained people on how to use the 
technologies to detect those cases.
    So the health care arena remains a big issue that needs to 
be grappled with it, and it starts with the enrollment of 
proper providers to do pre-payment screening processes with 
predictive analytical technologies, to do post-payment claim 
reviews, to do recoveries of known overpayments. So we are 
looking at all phases of that approach to make sure that we are 
making recommendations that can help guide them as they tackle 
this very important issue.
    Mr. Cummings. Well, as you make these recommendations, are 
these recommendations ongoing?
    Mr. Dodaro. Yes.
    Mr. Cummings. So, in other words, you don't just come at 
one point and say these are the recommendations, then you wait 
another year and then these are the recommendations?
    Mr. Dodaro. Right.
    Mr. Cummings. You are continuously making recommendations?
    Mr. Dodaro. Yes. Yes.
    Mr. Cummings. And how is that done? In other words, do you 
run into situations where you see a problem and do you 
immediately let the administration know that?
    Mr. Dodaro. Yes. Once we have confidence that our analysis 
is complete, yes, we do that. We provide all our reports to the 
agencies for comment and draft before we finalize them, but we 
have ongoing dialog with them, so we share that on a continual 
basis.
    Mr. Cummings. Can you give us a sense of how many of the 
proposals put forward by the administration in the 2013 budget 
address GAO's issue areas from the 2011 report? Do you have any 
idea?
    Mr. Dodaro. There are some of them. Unfortunately, the 
timing of our report was we had to close our field work before 
the President submitted his budget, so we weren't able to 
reflect all those in the report, but one we did mention is that 
the new requirement for the administration to designate 
crosscutting priority goals because of the Government 
Performance and Results Modernization Act of 2010, they 
identified 14 crosscutting goals, many of which touch on the 
areas in our 2011 report and our 2012 report.
    Mr. Cummings. Now, is it also true that the progress made 
in disposing of excess or underutilized property has there been 
progress there?
    Mr. Dodaro. Yes, yes. Actually, when I testified before 
this committee last year on our high risk list, we mentioned we 
had narrowed the focus of the high risk list on real property 
because they had made some progress in that area. It is also an 
area where they have submitted a legislative proposal. This 
committee has acted upon it, the House has; it is pending 
action in the Senate. So I think there is steady progress being 
made in that area as well.
    Mr. Cummings. So are you satisfied with that progress? I 
know it's ongoing. I'm just curious.
    Mr. Dodaro. Right. Well, I think that it would be good for 
legislative action to be taken to be able to deal with some of 
these barriers that they face in disposing of those real 
properties, and I think greater progress is possible and 
legislative action would provide an additional impetus and give 
the administration an additional tool to deal with that area. 
We are continually doing that.
    Next year, when we testify before you, we will have a 
definitive answer in our high risk list, but I am expecting 
more progress; I think it is possible.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman, and thank you all 
for joining us today. Just a couple quick questions.
    Mr. Dodaro, your testimony says that we could potentially 
save tens of billions of dollars annually. What are the most 
important areas we should focus on to realize these cost 
savings?
    Mr. Dodaro. There are a couple that are really important. I 
mentioned one in my opening statement in terms of the 
adjustment process. Congress mandated, in the Medicare 
advantage portion of the Medicare program, that there be a 
comparison with the fee-for-service program. There is a greater 
advantage to people in coding beneficiary diagnoses for 
Medicare advantage because they get paid based upon those 
claims, where fee-for-service programs the diagnosis isn't as 
important, if you will, going forward, to be as precise.
    So they make an adjustment to the process. It was 3.41 
percent that was developed because of these coding errors. We 
think the percentage is higher. So by refining CMS's process, 
we think they could save over $1 billion, up to $3 billion, and 
that is cumulative going forward every year.
    Also, there is an area of where the Federal Government does 
not have enough information to offset pensions for Social 
Security, particularly spousal benefits from people who don't 
participate in the Social Security program, like State and 
local employees. The CBO has estimated that could be between $2 
and $3 billion in that arena as well.
    So those are a couple of really good examples that I think 
could yield very significant savings.
    Mr. DesJarlais. In addition to cost savings, what are the 
most important advantages to reducing duplication in 
government?
    Mr. Dodaro. Well, I think there are many. I think you save 
administrative costs, you save program dollars, you can target 
more efficiently to help people. I think it also, from a 
citizens perspective, makes it easier to figure out where to go 
to get services, to get help, and improve the image and 
confidence in Government that it is operating as efficiently 
and effectively, and are in the best interest of the American 
taxpayers as people believe and deserve the right that it does.
    Mr. DesJarlais. Okay, thank you.
    I would like to yield the balance of my time to the 
gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you. I appreciate it.
    I appreciate all the work that you are doing. A question 
for you about the Inspectors General. I have some concern about 
the lack of appointments from the administration. We have 
vacancies at State Department, DOD, USAID, SIGAR.
    For a moment, talk about the role that they play. One of 
the questions I have is long-term, organizationally, how should 
we move forward? Are they in the best position to actually 
achieve what they are supposed to achieve, or should we perhaps 
consider a reorganization? I wonder if maybe they should be 
part of your organization. Give me your perspective, if you 
would, general.
    Mr. Dodaro. Yes, I will do that. I also would like Patricia 
Dalton to comment on it. She was Deputy Inspector General at 
the Labor Department and Acting IG there for a year, so she has 
a unique perspective as well.
    First, I too am concerned about the vacancies in those 
areas. It is very important to have somebody there. I know 
first-hand. I was acting for 2\1/2\ years in this position 
before I was confirmed. It makes a difference and it is 
important to have somebody in there that can provide the right 
type of leadership. The IGs are well positioned with proper 
leadership, and they have the tools and they have the legal 
authorities to be effective, and many of them carry out 
important areas.
    I think it is important for each department and agency to 
have their own audit investigation shop there. It is hard for 
us to cover the entire Federal Government, but there are many 
more resources in the IG community than there is in the GAO 
across Government, so we try to focus on cross-governmental, 
cross-agency type of issues, which are very important.
    So I think that if the proper leadership is there and the 
proper staffing, they can be effective, and that needs to be 
the case across government as well.
    We work with them very carefully doing financial audits. 
They arrange for them at the departments and agencies; we do 
the consolidative financial statement. So I try to work 
effectively with them, but I haven't really thought about 
reorganization options. I will give that some additional 
thought.
    Pat.
    Ms. Dalton. One thing I would add is just where they are 
positioned in their cabinet agencies. I think it is an 
important and valuable position in that they are within the 
departments so that they can see close-up what is going on.
    But the protection for them is that they also report to the 
Congress, so they do have dual reporting responsibilities, and 
it is very important that the Inspector Generals take to heart 
those responsibilities and recognize that they report to the 
Congress, as well as to working within the department. So I 
think it is very important.
    There are some protections the way they are positioned, for 
example, for their budgets. The Congress is told exactly what 
they requested, it is not just what the administration passed 
through and requested for them. So those are important 
protections that provide some valuable insights to the Congress 
just by their position in the agencies, that they can see what 
is going on within it.
    Mr. Dodaro. I might point out also, Congressman Chaffetz, 
they have far more investigators to do criminal investigations 
than we do at the GAO. That is another important difference 
between our two organizations.
    Mr. Chaffetz. Thank you.
    My time has expired but, Mr. Chairman, I would hope that 
these vacancies be a priority for this administration because 
to have four of these major departments without an IG, one of 
them the State Department for more than 3 years, I think is 
totally unacceptable. It is vital to us to have the proper 
oversight within these departments.
    I yield back.
    Chairman Issa. I share with the gentleman that feeling. I 
would note that your very clever question of should $2 billion 
worth of funding and 12,000 employees be added to the GAO was 
an excellent question. The general seemed to have ducked the 
answer of increasing his organization by that size.
    With that, we go to the gentleman from Tennessee, Mr. 
Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    If every politician were here who denounced waste, fraud, 
and abuse, this hearing room would be packed. If the lobbying 
community took our efforts seriously, the audience would be 
packed. But I am afraid what we are seeing here is a lot of 
political theater, and it is not even very good theater.
    The GAO has put together an excellent report. We all know 
in our hearts that very few members of this committee will read 
it. We may or may not have a new Hoover commission. But the 
title of this committee is the Government Oversight and Reform 
Committee. It is our job to do this. I wish our colleague from 
the Senate, Senator Coburn, had been able to testify first, 
because his testimony highlights very clearly this is primarily 
a congressional responsibility that we have bungled. He also is 
very useful in reciting the history of almost 100 years of 
congressional lip service to this problem and very little 
action.
    So how do we solve this? There are a lot of excellent 
examples that have been brought forward in this committee, 
specific examples dealing with the details of government which, 
unless people are personally affected back home, they really 
don't care much about; they just want the problem solved, and 
they wonder why we take so long to solve it.
    So I would like this committee to consider some procedural 
forums to encourage us to tackle these problems and take them 
more seriously, because today the political reward system is 
such that we are primarily benefited if we have good news 
speech material that excites voters back home, something new 
and improved.
    And to be honest with you, most of us don't really care if 
it is a duplicative program as long as it sounds good to kids 
or seniors or veterans or whatever constituency we are 
appealing to. And it has worked this way in American politics 
for a long, long time.
    So how do we change that equation? How do we incent to this 
committee or this body to read the report, to take it to heart, 
to enact legislation, to curb duplicative programs? What is the 
reward system in that?
    In general, you know, the phrase in politics is friends 
come and go, enemies accumulate. And most folks are worried 
that there is going to be some group out there, and the pimento 
lobby was against me at one point. Yes, the little red thing in 
the olive has its own lobby, and somehow I was labeled as being 
anti-pimento. I had no idea. I didn't mean to be anti-pimento, 
but they care deeply about my pimento track record. So there 
are pimento lobbies all over the country and they have a 
constitutional right to lobby. Free speech is a great thing.
    But we also have to manage this Government and we are doing 
a terrible job today. So how do we clean house? How do we get 
rid of obsolete laws? How do we stop duplicative programs? The 
same old, same old isn't going to do it. We can have all the 
commissions in the world and won't read that new report just 
like we won't read this report.
    So, Mr. Chairman, we need to think of ways to get this 
committee to do its work.
    I look forward to Senator Coburn's remarks because he has 
been one of the national leaders on this topic. Many people in 
both parties have tried to lead on this, but the same old 
approach will not do it. So let's put our heads together and 
think in some bipartisan way of not just blaming the 
administration, not just thinking that the cure-all for all of 
Congress's problems will be switching party leadership, because 
both parties are in cahoots on this and we have both bungled 
it.
    So I would ask the GAO, at least in your spare time, and 
you already do an excellent job, we need help in creating a 
different system so that we are not always seeking new speech 
material, not always new and improved, without caring what is 
duplicative. In some State legislatures they have proposed that 
you can't pass a new law until you get rid of two old ones. 
That is an interesting approach to it.
    Maybe if the media paid more attention to our overall 
record of cosponsorships, how many folks have sponsored 
billions, trillions of new ideas without looking at how much 
could be reduced, because Government is obese and we have to 
figure out a better solution than the current same old, same 
old or the blame game.
    We are great at blaming the administration, we are great at 
blaming the other party, but that is not getting the job done. 
That is not solving the problem for folks back home.
    So I look forward to talking with you, Mr. Chairman, about 
this and the ranking member. There has to be a better approach 
than what we are doing right now.
    Chairman Issa. Would the gentleman yield?
    Mr. Cooper. I would be delighted.
    Chairman Issa. I couldn't agree with you more that we do 
have a long history of having hearings and then having a 
similar hearing a year later. One question you might ask the 
general, though, is what is he doing to reduce costs at the GAO 
in light of an 11 percent cutback in his funding.
    Mr. Cooper. Well, the gentleman has already asked the 
question.
    Would the gentleman like to respond?
    Mr. Dodaro. Well, we have taken an approach to look at a 
line-by-line item of our budget and scrubbed it to be more 
efficient in terms of cutting back on our administrative 
operations and really making sure that they are operating 
effectively. We are experimenting with more telework in the 
field to reduce our rental cost by 40 percent.
    Unfortunately, all the actions that we have taken in order 
to improve the efficiency of our operations hasn't been enough 
to absorb the cuts. Since we are an agency of 80 percent 
personnel costs, we have had to reduce the number of people at 
the GAO. This year we will be 11 percent smaller, which is 
about 365 people, which will be the lowest level in GAO 
staffing since 1935. So I have been concerned about this.
    I have testified before the House Appropriations Committee, 
asked for a partial restoration of the staff support. I believe 
we have good justification. Our recommendations, many of them 
are adopted; many are not, they are still in process. But those 
that have been adopted have returned $81 to the American 
taxpayer for every dollar invested in GAO. So I look forward to 
continuing to work with the Congress on this issue.
    Chairman Issa. Great question, Mr. Cooper.
    With that, we go to Mr. Chaffetz for 5 minutes.
    Mr. Chaffetz. Thank you.
    I want to go to one of the sections in here that talks 
about the lost revenue, if you will, from the IRS failing to 
collect some $385 billion. Can you expand on that a little bit? 
You know, a lot of discussion we have here in Congress is about 
should we increase taxes, should we cut taxes, and here we have 
$385 billion? That is an annual number from 2006, correct?
    Mr. Dodaro. Right. One of the things, Congressman, I am 
glad you asked this question. First of all, IRS had not been 
doing regular estimates of the tax gaps, so we had made 
recommendations to that issue. We had placed administration of 
the tax laws on our high risk list many years ago, starting out 
with fraud in the earned income tax credit, but we expanded it 
more broadly. There is a lot of under-reporting of income in 
this area, but the first part was to figure out how much and 
then where is it occurring.
    So the IRS is continuing now to do active research in all 
those areas and GAO is doing a lot of research. Some of the 
things that we have recommended, for example, have been to have 
IRS use third-party information more to check against the 
records. For most wage earners, the taxes are deducted, but for 
many others they are not. So that is an area.
    In real estate, for example, real estate owners, for 
services that are provided to corporations there could be 
third-party reporting. The Joint Committee on Taxation, just 
from implementing those two recommendations alone, estimates 
$5.9 billion that could be collected over a 10 year period of 
time.
    We have also recommended that they could perhaps do a 
better job providing assistance to taxpayers to ensure greater 
voluntary compliance through automating some of their responses 
as well. We have recommended in the past, and now it is being 
implemented, that paid tax preparers, who many people use, have 
to have certification and ongoing education requirements as 
well.
    So it is really a multifaceted strategy that we have 
recommended, and we continue to do work in this area to try to 
do it. We shouldn't ask people to pay more if the people 
currently aren't carrying their share of the burden.
    Mr. Chaffetz. And I guess that is the point, Mr. Chairman, 
that while there is talk about raising taxes again, here we 
have $385 billion not collected in just one 12-month period, 
and then you combine that with the tens of billions of dollars 
in waste, fraud, and abuse. If we want to have an economic 
impact upon the financial books of this country and our ability 
to have a government that is limited, but also funded in a 
proper way, these are two things that we cannot ignore, and 
that is why I am so excited about this committee and the work 
that we are doing here.
    I have just less than 2 minutes here. I want to talk about 
the border security, point number 47 in the report. We had 
spent an unbelievable amount of money on SBInet, which 
basically doesn't work, but the Arizona Border of Surveillance 
Technology plan, you are somewhat critical of that plan. Can 
you expand verbally on the concerns that you have with the 
border security initiative that Homeland Security is putting 
forward?
    Mr. Dodaro. Yes. We have concerns that it is unclear as to 
what the benefits are going to achieve and how they are going 
to measure performance under the program, and also estimating 
the life cycle costs of these activities.
    Continually, when we look at these technology investments, 
it is always not quite clear up front exactly what the benefit 
is that is going to be achieved, how it is going to be 
achieved, how you are going to measure whether you know that 
there is success there, and do you have a realistic estimate of 
how much it is going to cost before you start proceeding down 
the path and have well defined requirements.
    If you don't have those things up front, it is a recipe for 
disaster later on, and a lot of wasted resources and time and 
energy, so in this case we are saying that those things ought 
to be well defined up front. The Department agrees, I believe, 
with our recommendations and hopefully they will be able to 
provide these type of clarifications and additional analysis.
    Mr. Chaffetz. And one thing that I would hope that the GAO 
would look at is how the statistics are gathered on the border. 
There is some concern that there has been an adjustment or a 
change in how those statistics have initially come about. How 
are we tracking the turn-back souths or the getaway categories? 
Here we are trying to quantify things which, as you say, having 
the metrics in place is imperative to coming to a proper 
decision, so I would just encourage you look at that.
    My time has expired. I yield back, Mr. Chairman.
    Mr. Dodaro. We are looking at that issue right now. We will 
have a report soon.
    Mr. Chaffetz. Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from New York, Mrs. Maloney, 
for 5 minutes.
    Mrs. Maloney. Thank you so much.
    Congratulations, Mr. Dodaro and your team, on this really 
excellent report. I would like to be associated with the 
comments of my friend, Mr. Cooper. I am going to take this 
home, I am going to put it by my bed, and I am going to read it 
every night before I go to bed, because let me tell you, I 
think that saving taxpayers money and making government work 
better is a really exciting goal and something that we can both 
work together on all sides of the aisle to make happen.
    I understand before I got here there was an agreement on 
one of your areas that you have highlighted for many years, the 
loophole for oil and gas companies, that they are literally 
leases to extract oil and gas from land owned by the American 
taxpayer and absolutely nothing is coming in from it. You 
estimated $21 to $53 billion.
    I believe the chairman or the Republican report had $80 
billion, so certainly whether it is $80 or $53 billion, it is a 
lot of money, and I am thrilled that we are going to work 
together to close that loophole and move forward; that could 
help our economy and help pay down our deficit.
    You also talked about management and improving management 
of oil and gas resources as really an area we need to focus on. 
Based on your report, you said we are not getting a fair return 
from the leasing of Federal land that belongs to U.S. 
taxpayers. In fact, you said we were absolutely 93rd in the 
world, to be exact, in collecting revenue from oil and gas 
leases, and the only countries doing worse than we are are Peru 
and Pakistan in collecting greater. That is not a very good 
record, is it? So we are going to have to work on that.
    In your report, you indicate that over the last year 
improved management by the Interior of Federal oil and gas 
resources could result in an additional revenue of $1.8 billion 
over 10 years. Can you elaborate on what the Interior is doing, 
what steps we need to take, and could you just point out more 
information in that area?
    Mr. Dodaro. Sure. I am going to ask Ms. Dalton to address 
that issue; she was responsible for that work.
    Mrs. Maloney. Okay, great.
    Ms. Dalton. Thank you.
    There are a number of things that Interior can do, and in 
fact they are starting to do that we have pointed out in our 
report. One is to gather good data on what actually is coming 
out of the wells to determine how much is being owed to the 
Federal Government. It is important to have third-party 
information and not self-reported information.
    It is also important to have quality information coming in 
so that it is verified, again, so that we know exactly what is 
being owed. I think those are two important things that will 
help in the Federal Government receiving exactly what it----
    Mrs. Maloney. And Interior is working on this now?
    Ms. Dalton. They are working on it. They have made some 
progress, but there is more to be done. Interior is also 
working at hiring additional people. They have gone through a 
reorganization. They need to have the right people and the 
right skills to do the important work that they are charged to 
do.
    One thing Interior has done recently, which we pointed out 
in your report and you mentioned in terms of where the Federal 
Government is as a resource owner in the amounts that we are 
charging, Interior has just completed a study of our royalty 
rates and has made adjustments in those. There is one area that 
you allude to in terms of non-producing lands. There is a 
request by the administration to provide an annual rental fee 
if a lease is not producing, that the lessor would be required 
to make a payment based on the acreage leased, to which many 
resource owners do in fact charge.
    When we did our study, what we were doing was comparing 
what we in the Federal Government do and the Department of 
Interior does with other resource owners, whether it is States, 
other countries, private citizens that own valuable oil and gas 
resources and other minerals.
    Mrs. Maloney. Well, my time is almost up. I would like to 
ask each of you, you have worked hard on this report, if you 
could recommend one area, just one simple area that is not 
divisive, that every American could agree on, that even 
Congress could agree on and work together on to help 
improvement management that would help the bottom line of our 
country, what would it be? Do you want to start, Ms. Dalton?
    Ms. Dalton. I think one of the things that I think is most 
important that crosses all of the areas is having good 
information on what exactly are we getting. Are we matching the 
outcomes that we are receiving? Because then we can start 
making decisions on how we can be more efficient and more 
effective.
    Mrs. Maloney. Mr. Dodaro.
    Mr. Dodaro. I just would like to underline Pat's comments, 
because the one thing that has really surprised me out of this 
whole exercise that we have been doing for the past 2 years is 
how much we do not know about the effectiveness of many of 
these programs. They may have overlapping responsibilities, but 
in trying to figure out how to handle this, you really don't 
have a lot of good information about what we are getting for 
the value of many of these programs and activities, and I think 
unless you have that it is very important.
    The other thing is I think we have to get better organized 
to deal with the problems according to the comments that were 
made earlier by the chairman on this area. I don't think we are 
organized properly to be able to tackle these problems with the 
administration or within the Congress, so I think innovative 
approaches are required.
    Mrs. Maloney. And Ms. St. Laurent.
    Ms. St. Laurent. Thank you. I think both of our reports 
highlight a number of areas where just better attention to good 
management practices and good business practices would yield 
significant benefits.
    Mrs. Maloney. Such as?
    Ms. St. Laurent. For example, we have several suggestions 
from last year's report regarding contracting, the need to get 
better competition in contracting, better manage the use of 
multiple award contracts, etc., or interagency contracts. Also, 
the efforts that are going on now to consolidate data centers I 
think are very important and have potential for saving 
significant costs as well. So those are a couple of examples.
    Mrs. Maloney. Thank you.
    Chairman Issa. I thank the gentlelady.
    With that, we go to the gentleman from Pennsylvania, Mr. 
Kelly, for 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman.
    General, good seeing you again.
    My concern is more when we go to the auto bailouts. There 
was $62 billion spent, and when we talk about the Auto Recovery 
Office, part of the Department of Labor, I noticed in item 39 
we are talking about an office that spent, I think, roughly 
last year $1.2 million in travel expenses going to communities 
that were hardest hit by plant closings and the effect that it 
is going to have. Can you see any positive results from that?
    I read your report. There seems to me that there is a great 
deal of overlap with that Department, and maybe they have 
missed their mark as far as what they were initially set to do.
    Mr. Dodaro. Basically, our fundamental point is right on 
your question. We have asked them to provide justification for 
what they think they have done in order to promote 
effectiveness, because when we went out and talked to 
communities, many of them got help, but pointed to other parts 
of the Federal Government that they got assistance from.
    So our fundamental question is either for the office to 
produce some tangible concrete examples of exactly how they 
have improved their effectiveness or those funds could be 
better spent perhaps going to departments that are providing 
direct assistance to the communities.
    Mr. Kelly. Yes, because it seems to me there is an awful 
lot of duplication there and a lot of just back and forth on 
things that didn't really accomplish anything. And I am greatly 
concerned now because as we talk about the auto bailout 
somewhere, and I don't think this is a time to take a victory 
lap, I know and you know.
    And after being in the automobile business all my life, I 
do know that the cost of gasoline does kind of effect what the 
market is and who can afford to buy a car and what they are 
going to continue to do. So while we may think we have made 
some type of a dramatic recovery, and I just looked to this 
past weekend, if you add all the manufacturers' numbers 
together, you know what they are projecting, the czar is, for 
this year? That is the annual sales rate; $16.5 million. Now, 
that is their projection if you take each one individually.
    I am a little skeptical of that ever coming to a reality, 
but the dramatic impact of that is all of these projections go 
forward as to what you are going to do as far as production is 
concerned; how you are going to use your suppliers, what they 
are going to be asked to provide for you. And we know from that 
last downturn, and I went through it personally at the time, I 
was an automobile dealer solely, I was not a Member of 
Congress. The market dropped 35 to 40 percent over a weekend.
    Now, that also affected especially trucks and SUVs. When 
the price of fuel goes up, those just fall off a cliff; I mean, 
they absolutely fall. The problem you have is that people owe 
so much more on that vehicle, they can't even trade it in; 
there is no way you can bring it back.
    Now, people say what the heck is he talking about, what 
does that have to do with anything? If you are in a community 
that builds trucks and SUVs, that has a dramatic effect and I 
am more concerned. I know we have done a lot of things that we 
think are going to ensure somehow a safe landing or some type 
of a parachute that is going to make it a little bit easier. I 
see what is going on right now as absolutely a harbinger of 
what is to come. As much as we may talk about it and have all 
kinds of studies about what is best for those communities, 
there is nothing like a strong market and a strong economy.
    So no matter how many studies we do, and I know that people 
talk about we need to have a better ROI on the studies that we 
do, but the truth of the matter is the shareholders don't have 
a vote in this, the stakeholders don't have a vote in this. We 
just tax them and take their revenue; we decide where to spend 
it, as much as we would like to see it spent better.
    And I am not one that will stay up all night reading the 
report, I read some parts of it that really affect me, but I 
tell you what, you have done a wonderful job on it. I 
appreciate what you are doing and I wish we could incorporate 
much more quickly those ideas that you have and those fixes to 
it; it would certainly bode well for the stakeholders and 
shareholders of this business, which are the hardworking 
American taxpayers.
    So I thank you for your time. I know that there is a lot of 
duplication in this office. While it doesn't really hit high on 
the amount of expenses, this is one of those times where $1.2 
million sounds like chump change, but when it comes out of your 
pocket after working all week, it is a great deal of money. So 
thanks, keep up the good work, and we will try to work with you 
and get to some answers. But thank you for your time.
    Chairman Issa. Would the gentleman yield?
    General Dodaro, specifically on the auto bailout 
effectiveness, I think you have weighed in previously on that. 
Would you like to give us an update on how successful those 
funds relocation, the effort has been?
    Mr. Dodaro. There are, and I comment on it both in terms of 
the automakers, but also other parts of the TARP, there are 
still a couple of key issues where the story isn't completely 
written yet, and one is whether or not Treasury decides when to 
divest in some of these investments that have been made in the 
auto companies.
    AIG, for example, we have made recommendations to make sure 
that they have the right type of expertise to decide when to 
divest and how to do it in order to make sure that the 
taxpayers are best protected in that area. And I might also 
take the opportunity to comment that another large part of the 
bailout activities is resolving the issues with Fannie Mae and 
Freddie Mac, and that is a big issue. That will end up being 
one of the major costs incurred through this financial bailout 
process.
    Chairman Issa. I thank the gentleman.
    Mrs. Maloney. Would the gentleman yield? May I ask a 
question? Would the gentleman yield?
    Mr. Kelly. My time has expired.
    Mrs. Maloney. On this particular issue, on the TARP. I ask 
unanimous consent to ask a question on TARP.
    Chairman Issa. If the gentlelady from Washington, DC, will 
forego, I would ask unanimous consent the gentlelady have 30 
seconds for a question. Without objection.
    Mrs. Maloney. This is a critical point and we really need 
more information on it. We had a bill, a bipartisan bill passed 
in the last Congress that would track everything TARP passed 
our House, overwhelmingly died in the Senate.
    I think I would like to request the chairman to request, 
since I know I don't have the power to request, a report on 
where we are in TARP from the GAO. Where did all that money go? 
What is still out there? What are these questions that you sort 
of lightly touched that we could look at in a better way to 
figure out how to make smart decisions on what is remaining to 
be done.
    I still am fuzzy on where it was paid back, what time, in 
what form, and I think that that would be a really helpful 
thing for the economy and ways to manage in the future and 
manage what is right before us right now.
    I yield back. Thank you.
    Chairman Issa. I thank the gentlelady and I will take your 
request as an order to work with the GAO on bringing that to 
the full committee.
    With that, we recognize the gentlelady from the District of 
Columbia for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    And thank you, Mr. Dodaro, for this report. Actually, I 
want to suggest one doesn't have to stay up all night reading 
the report because that is not how it is organized. It is 
really organized so that you can go in agency by agency and 
look at and extract the particular areas where you could really 
get some bang for whatever buck it is you are looking for.
    If you believe the Government does a great deal of good, as 
I think the American people really do, you want it managed very 
well, and every time something comes out, it is being poorly 
managed. There are those who will take advantage of that to say 
that the whole thing ought to be sent up in smoke.
    But essentially, Mr. Dodaro, this is a management 
responsibility. When I chaired the EEOC, I reorganized the 
agency, but I didn't do it just to pull the programs from one 
place to another, enabled me to go to a settlement strategy, 
for example, instead of litigating everything. I can see the 
value of eliminating duplication. In order to do it, I had to 
reorganize the entire agency.
    Now, the closest thing we have to eliminating duplication, 
overlap, etc., is the President's proposal on reorganization, 
so I have to ask you about that, because we can talk about it 
as much as we want to, but it is the administration, it is 
management that runs the agency. So just to take one of the 
functions, the President wants to do this in a way just like 
you have done it. He doesn't do the whole elephant and say 
throw it up and let's get it all done; he focuses in on 
agencies which suggest reorganization would save money.
    The trade functions, for example, where he says over 10 
years you could save over $3 billion. You would think Congress 
would be all over that as much as we want to save funds, but in 
light of your own report on duplication, I would be most 
interested in your opinion of the President's reorganization 
proposal.
    Mr. Dodaro. First, I would say there are a couple issues. 
One is the request for the sort of fast-tracked authority for 
the Congress. I think that the real policy decision that the 
Congress is going to have to wrestle with----
    Ms. Norton. Why do you think the President did that? 
Congress will always have problems with that; that is the only 
way we have to get into the struggle in the first place.
    Mr. Dodaro. Well, I am not sure, to be honest with you. I 
think the Congress worked with the administration in the 
reorganization for the Department of Homeland Security. 
Presidents have requested but we really haven't had that fast-
track authority since President Reagan was given the authority 
for a brief period of time many years ago.
    Ms. Norton. Did it work for President Reagan?
    Mr. Dodaro. Well, I don't think that he made any proposals 
through it because it was only given to him for a couple of 
weeks, so there was a short window of opportunity there. But I 
think there is a real deliberative process, and the question is 
one of the things I think needs to be thought about is how the 
Congress needs to engage the administration in the development 
of these proposals so that there is consensus so that they work 
effectively over time; and that applies to any sort of 
proposal, because if you don't have that consensus, then people 
start trying to undo the----
    Ms. Norton. Mr. Dodaro, let me ask you this, then, because 
I am not here to make the case for fast-track. I am much more 
interested in his reorganization proposals.
    Mr. Dodaro. Well, I think there are a couple of issues 
there that need to be taken into consideration. One would be 
exactly what problem they are trying to address. I think the 
issue about the U.S. Trade Representative being included in the 
Department is one that has to carefully be considered because 
of the prominence of that position in dealing internationally 
and also its special relationship with the Congress and 
Congress's authorities in the trade areas.
    Some of the other opportunities for coordination I think 
have merit and should be considered. There are different ways 
to get coordination, but I think they also have to go into this 
with the recognition that however they are reorganized in the 
trade areas, because of the wide areas of responsibility, 
coordination with other departments and agencies will still be 
important over time. I think there needs to be a good 
transition plan that has to be talked about up front. I don't 
think that was given enough consideration for the Department of 
Homeland Security. So there are a lot of facets of that 
activity. I think any reorganization proposal has merit to be 
discussed and deliberated on, and to really take careful 
deliberative action is appropriate.
    Ms. Norton. Thank you. Thank you very much.
    Chairman Issa. I thank the gentlelady.
    We are now joined by Senator Coburn. Pursuant to our rules, 
active Members of the House and Senate are not sworn in, so I 
now take great pleasure in recognizing the gentleman for 
roughly 5 minutes.

               STATEMENT OF HON. TOM COBURN, M.D.

    Senator Coburn. Well, thank you, Mr. Chairman, Ranking 
Member Cummings, and members of the committee. First of all, 
let me applaud you for having this hearing. What is 
disappointing is so few Members of your body are here, which 
identifies what the real problem is in Congress. I also want to 
thank Gene Dodaro for being here.
    Chairman Issa. Too many committee assignments like a markup 
next door, I am afraid.
    Senator Coburn. Sure. But the fact is that calls a lack of 
leadership in organization of Congress so that we pay attention 
to the things that are really important. I don't know what the 
markup is, but the fact is that the country is drowning in 
debt. We have a $1.3 trillion deficit.
    We have totally vanquished opportunity for our kids in the 
future, and we have brought to us by GAO some things that we as 
Members of Congress on both sides of the aisle can do, and yet 
not one major thing was done off their report last year, except 
what Virginia Fox did in terms of consolidating some 35 work 
and job training programs, which were recommended in last 
year's study.
    I would tell the delegate from D.C. that I applaud the 
administration's proposal. I am supportive and I am working 
with them to try to do it. But I would take issue with the 
point that we created 82 teacher training programs, the 
administration didn't. We created 47 different job training 
programs. We created 56 different financial literacy programs. 
We created 100-plus transportation programs through seven 
different agencies. We created 209 different science, 
technology, engineering, and mathematic education programs.
    So it is true that the administration is leading in trying 
to consolidate this, and I applaud them and I am going to help 
them try to move it through the Senate, but the responsibility 
lies on us because we in fact have created the mess. We have 
one department in this Government that knows all their 
programs, only one. The rest of them have no idea all their 
programs. We can't even get a bill through the Senate that says 
that agencies should give a list of all their programs every 
year. Nobody on that panel knows all the programs for all those 
different agencies.
    Well, if nobody knows, how are we ever going to solve the 
problem? And we are not unless we as Members of Congress take 
the initiative to start solving it.
    What I would tell you today is this is a good first start. 
What Gene Dodaro and his group have done has given us some 
areas where we can make major changes that not only address the 
needs that are out there that are not being met now, but can do 
it in an economical and efficient way, and eliminate 
significant duplication that by their own report, both last 
year and this year, says that sometimes actually harms those 
people that we are trying to help.
    So I think we have a great opportunity to try to fix 
things. They put it on a platter for us and, unfortunately, we 
have done nothing with it. And given the fact that our country 
is bankrupt, not going bankrupt, we are bankrupt. If you add 
all the total unfunded liabilities, we are over $130 trillion, 
if you add $15, $16 trillion worth of debt, there is no way we 
can fix our country unless we as Members of Congress start 
looking at what we are already doing.
    The other thing that I would propose that you all ought to 
pass, we have attempted it twice in the Senate; we got 64 votes 
once and 60 the second, is have CRS look at every bill before 
it goes through for a vote to make sure it is not duplicating 
another program; in other words, to give us the knowledge to 
say before you pass another bill, are you duplicating something 
that is already out there so that we don't keep digging the 
hole deeper. I think those are things that we can do.
    We put forward what we have done the last 7 years in a book 
called Back in the Black. A lot of people won't agree with all 
that is in it, I understand that, but there is $9 trillion 
worth of savings in this. If we could come to consensus on $3 
or $4 trillion, we could make a significant difference in the 
outlook and future for our country and our kids.
    So I would hope that you would look at that at some point 
in the future and critique it. But we have to come together. I 
think we have well earned our 15 percent approval rating for 
the American people.
    With that, I would be happy to answer any questions.
    [The prepared statement of Senator Coburn follows:]
    [GRAPHIC] [TIFF OMITTED] 74037.052
    
    [GRAPHIC] [TIFF OMITTED] 74037.053
    
    [GRAPHIC] [TIFF OMITTED] 74037.054
    
    [GRAPHIC] [TIFF OMITTED] 74037.055
    
    [GRAPHIC] [TIFF OMITTED] 74037.056
    
    [GRAPHIC] [TIFF OMITTED] 74037.057
    
    [GRAPHIC] [TIFF OMITTED] 74037.058
    
    [GRAPHIC] [TIFF OMITTED] 74037.059
    
    [GRAPHIC] [TIFF OMITTED] 74037.060
    
    [GRAPHIC] [TIFF OMITTED] 74037.061
    
    [GRAPHIC] [TIFF OMITTED] 74037.062
    
    [GRAPHIC] [TIFF OMITTED] 74037.063
    
    [GRAPHIC] [TIFF OMITTED] 74037.064
    
    [GRAPHIC] [TIFF OMITTED] 74037.065
    
    [GRAPHIC] [TIFF OMITTED] 74037.066
    
    [GRAPHIC] [TIFF OMITTED] 74037.067
    
    [GRAPHIC] [TIFF OMITTED] 74037.068
    
    [GRAPHIC] [TIFF OMITTED] 74037.069
    
    [GRAPHIC] [TIFF OMITTED] 74037.070
    
    [GRAPHIC] [TIFF OMITTED] 74037.071
    
    Chairman Issa. I thank the gentleman.
    With that, we go to, oddly enough, the gentleman from 
Oklahoma, Mr. Lankford, next.
    Mr. Lankford. Thank you, Mr. Chairman.
    Thanks all of you for being here. Appreciated the 
testimonies of both of you. I had to slip out for a moment to 
be able to come back in, but I appreciate that.
    Let's talk about the why. Dr. Coburn, obviously, you know, 
as a physician, very well, you can treat the symptoms all day 
long, but you have to figure out what is causing it. What is 
causing all of this duplication? While the GAO report is a 
terrific report of here are the duplications, are there areas 
we can back up and fix and let's prevent it?
    One of them you have already identified, the CRS reporting, 
to get the possibility that in advance of a vote there is 
already a report out there that says this already exists. Do 
either of you have ideas to say here is the why this is 
occurring?
    Mr. Dodaro. Well, I think that basically many of these 
programs start out as well-intentioned perceptions of need, 
that there is always not a well documented case for that in the 
first place and there is an accumulation over time. I mean, the 
100 programs in surface transportation developed over decades, 
and there is really not a regular process, other than 
congressional oversight, to look at whether or not these 
programs are working effectively.
    I think in some cases part of our recommendations are to 
really tie funding to outcomes, and not just there is a 
perception that providing money fixes problems, and that 
perception is not always----
    Mr. Lankford. So you are saying just year after year 
Congress has this perception we have a problem, we need to do 
something; we didn't necessarily evaluate what we did last 
year, we are really not going to evaluate what we are going to 
do this year, but we need to go back to the voters and say we 
did something?
    Mr. Dodaro. That is definitely part of the issue.
    Mr. Lankford. Okay.
    Dr. Coburn, any other ideas you have on that?
    Senator Coburn. I think careerism has a lot to do with it. 
Elections have a lot to do with it. I will just give you a 
little anecdotal example. Two years ago, in one of my 
committees, at two different times in a 3-month period bills 
were brought before the committees that identically duplicated 
programs that were already running. In private, I suggested to 
the Members bringing forth those bills that maybe they ought to 
look at what was already being done and, of course, when they 
did, they withdrew the bills. The fact is that is an 
accumulation of poor staff work.
    But what it really reflects, and if you look at, we have 
actually documented the amount of oversight hearings. It has 
gone precipitously down in Congress over the last 20 years. The 
number of oversight hearings has gone precipitously down.
    We, as Members of Congress, don't know what is going on, 
and in our desire to please and to meet compassionately a need, 
we do try to act, but we act without knowledge because we 
haven't done the oversight. Treating pneumonia by treating the 
fever and the cough, and not ever giving an antibiotic, doesn't 
cure pneumonia. Matter of fact, it leads ultimately to sepsis 
and death. But that is what we do all the time.
    So what I think we lack is leadership both in the Senate on 
both sides of the aisle and in the House on both sides of the 
aisle, because if we are to get out of this, leadership ought 
to say every committee is going to do the oversight of every 
program over the next 2 years; you are going to look at what 
they are doing, how they are doing it, how effective it is, 
which ones you can measure.
    The one key thing, we don't have any metrics on any of 
this. We are looking at all the job training programs in 
Oklahoma. I have had eight field reps doing this for a year, 
until they finally discovered we were looking at it; now the 
administration won't cooperate. And we are going to be issuing 
a report, and here is what the summary of the report is on job 
training programs in Oklahoma: job training money from 
Washington is spent to keep the people employed in job training 
working, not training people for new jobs in Oklahoma.
    That is my consensus of what is happening in job training. 
It is the most fragmented, illogical, stupid system I have ever 
seen in my life. Some areas work well. On one program, the same 
program doesn't work well in another county. And the fact is 
that we have created that mess, and in the background of that 
what we have done is created a constituency of those that work 
in the job training program that value it, but have no metrics 
to prove that they are effective in what they were assigned to 
do.
    Mr. Lankford. The Taxpayer Right to Know Act that you 
mentioned in the Senate, basically asking every agency to 
define all the programs, why is that stalling? What was the key 
thing that we can get out of that, when it is said and done? 
And not blaming the Senate, but saying just simply identifying 
here are the agencies, identify all of your programs that you 
have.
    Senator Coburn. The Department of Education puts out every 
year a list of all their programs. They are the only one that 
knows all their programs. And the book is this thick. It is 
difficult for them to keep up with it. But the fact is is 
before you can fix anything, you have to know what the problem 
is and you have to know the extent of it. We have great help 
from GAO, but not to the extent that we need.
    Just a little history for a second. Gene's predecessor 
didn't want to do what I asked to do in terms of bringing these 
studies forward. When I asked the GAO to give me every program 
in the Federal Government, they said it is impossible. I went 
to CRS and they said it is impossible. So we made a mandate. We 
are two-thirds through that, is that right, Gene? So we are 
two-thirds through this. This is a 3-year program. By the end 
of next year the GAO will have looked at all of the Federal 
Government.
    The fact is even for GAO this has been a humongous task to 
get their hands around it, and they still don't really have 
their hands around it; what they are doing is identifying 
components of it. We have the power as Members of Congress to 
do the oversight to do the oversight on each one of these 
programs if in fact we will invest the time in it to find out.
    Because if our goal is really to help American people with 
these programs, we ought to be making sure that they are 
actually doing what they are intended to do. And I would put 
forth that 50 to 60 percent of them don't come close to any of 
the marks that we intended when we wrote the legislation that 
set them up in the first place.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Virginia, Mr. Connolly, for 
5 minutes.
    Mr. Connolly. Thank you, Mr .Chairman. And thank you, 
Senator Coburn and other panelists for being here today. And I 
want to thank the chairman for having this hearing.
    Let me begin with the piggy-back question of the chairman 
to our friend, Mr. Cooper, from Tennessee, the inference of 
which, if I draw it correctly, I actually agree with the 
chairman. Mr. Dodaro, you were asked how you are doing in 
implementing an 11 percent cut to your agency, and one of the 
things you cited in response to the chairman's question was, if 
I heard you correctly, an 81 to 1 ratio of savings for dollar 
invested. Could you expand just a little bit on that? I 
particularly want Senator Coburn to be able to hear that as 
well.
    Mr. Dodaro. Yes. What we do is we track implementation of 
our recommendations by the agencies and by the Congress and we 
get third-party estimates of what the financial benefits were 
as a result of implementing our recommendations, and we 
regularly report that over time. But the concern that I have 
had is that, on average, over the past 4 years, we have been 
averaging $91 for every $1 invested in GAO, and this past year 
was 81, and the 11 percent reduction is of concern to me 
because I think that we are missing opportunities to identify 
additional areas for the Congress to take even more actions on 
our recommendations.
    Mr. Connolly. I was listening to Senator Coburn, and as 
somebody who helped run a big local government, it was music to 
my ears what you were enumerating in terms of let's move beyond 
the aspirational when we pass legislation and look at efficacy. 
And can we do that in a nonideological context? Because if we 
could remove sort of the incendiary agendas on each side and 
actually just look at the merits, there would be a lot of 
common ground around here if we could get that done.
    But I would suggest to the Senator that the problem is 
trust is so badly broken here and so often we yield to the 
temptation actively for trying to get somebody politically that 
you burn trust on one side or the other on the actual task at 
hand. And if we could somehow detoxify some of the oversight we 
do in this Congress, I think we could find a lot more common 
ground.
    And you made the point, and so did you, general, that here 
we are a year later and, frankly, we haven't done much with the 
earlier report. And a lot of the recommendations you reported 
to us a year ago are recommendations you are reporting to us 
again, and it is Congress that hasn't acted.
    Senator.
    Senator Coburn. Well, I think the problem is not 
partisanship; I think the problem is elections. And I think it 
is the lack of courage and character in Members of Congress. 
They look more toward fixing their party and themselves--and I 
am talking both sides of the aisle--for the next election than 
they do the long-term interests of the country.
    I don't think we have had a problem here; all you have to 
do is look at our spending. Republicans and Democrats, whether 
Democrats have been in control or Republicans have been in 
control, doesn't matter who the President is, we doubled the 
size of the Federal Government in the last 11 years. So the 
problem is we get along too well when it comes to spending 
money we don't have on things we don't absolutely need.
    I would also like to comment I think what the budget 
ramifications for the GAO were obscene. When we cut them more 
than we cut ourselves, when they are the number one tool, if 
you want to find out something important in this Government and 
you want the facts to back it up, the last place you ought to 
be cutting is the GAO.
    And yet our appropriators on both sides of the aisle really 
was payback. I will make that claim. It was payback. They were 
embarrassed because they haven't done their job on oversight, 
and here GAO actually shows what is going on and the lack of 
effectiveness of appropriation, whether it is Democrat or 
Republican running it. They failed to do their job in terms of 
oversight and they are embarrassing them.
    So what happens is their budget gets cut because they are 
actually showing things that they should have discovered with 
their own oversight hearings.
    Mr. Connolly. And in the 39 seconds I have left, Senator, 
and I agree with you, I just think it is very important that we 
move beyond the mindless narrative that government is just big, 
bloated, and fat, and we should cut it all, and differentiate 
between an invested dollar that has a return on it, such as a 
dollar invested at GAO.
    If we really are serious about debt reduction, here is a 
vehicle for trying to get at savings. I mean, if it is 91 to 1, 
there aren't many other Federal programs where we can claim 
that kind of return, and it just seems to me I completely agree 
with the Senator; it is penny wise and pound foolish to 
disinvest in the GAO.
    With that, of course, I yield back. Thank you, Mr. 
Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Texas, Mr. Farenthold, for 
5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman. As I am sitting 
here, we have pretty much knocked half the deficit off the 
board just in our conversations with Senator Coburn's $100 
million estimate in duplication and the IRS not collecting 
almost well over $300 billion a year. Of course, we can get 
around you can't get blood from a turnip with the IRS, but we 
are about halfway there already. So we talk about what a 
struggle it is to get it under control. I am not sure it is 
that big a trouble if we just do our job.
    I did want to follow up on a question Mr. Lankford had 
about what did you think the causes for this were, and I am 
wondering if part of it also isn't the committee structure 
within Congress in that everybody, I think, will agree jobs are 
the biggest issue, so every committee wants to create a program 
to create jobs or to create training for jobs. I do think we 
have a unique opportunity with the broad jurisdiction of this 
committee to come up with overviewing all of these programs and 
coming up with recommendations that go through even the 
existing committee structure to do away with that.
    Senator Coburn, would you like to comment on that?
    Senator Coburn. Well, I am probably not still familiar 
enough with the House's committee structure to be able to 
comment on it. I think this is a nature problem of politicians; 
you want to be liked, you want to do the right thing. But it 
also has to do with an underlying tenant is we are on too many 
committees, we are not really good at any one thing; we are 
fair at a lot of things. Most of us don't go to doctors that 
are that way; we want to go to a doctor that is really good.
    So I just think this report, whether you agree with it or 
not, is based on 47 oversight hearings that I did in the Senate 
in 2 years. Forty-seven. That was more than the whole Senate 
did combined with every other committee. And the 
recommendations of this are based on facts from GAO, IG, OMB, 
and CRS. So you can agree with it or not, but the fact is if 
you agreed with a third of it we could be $3 trillion over the 
next 10 years less.
    Mr. Farenthold. Thank you, Senator. I want to go back to 
the GAO report. One of my colleagues suggested setting it by 
her bedside table for reading. I am going to take it with me to 
my town halls, get everybody to scan the QR code on here and 
actually have access to the report, because I think it is 
something the American people need to know and they need to 
pressure us----
    Chairman Issa. If the gentleman would yield.
    Mr. Farenthold. Yes.
    Chairman Issa. Knowing how tech savvy you are, we have now 
received the digital version of that for you to take on the 
plane.
    Mr. Farenthold. All right. I will download it to my iPad.
    I did want to touch real quickly in the short time 
remaining, one of the big issues in South Texas is issues with 
the VA, and I think section 15 of the report deals with the VA 
and some of the problems they have both communicating within 
their own organization and with the DOD for veterans coming 
out.
    I know there is one instance mentioned in the report where 
there were five case managers working on the same life 
insurance plan for one single individual, and one of the 
complaints I hear both from veterans who are trying to get the 
services that we promised them and that we owed them is that it 
takes the VA forever to get anything done. The VA in my neck of 
the woods is months behind in paying doctors who have treated 
our veterans, in some cases close to a year behind in paying.
    With respect to the VA, can you comment? Is it a technology 
problem? Is it just a tech phobia where they need to deal with 
technology? Is it a cultural issue? How do we fix what I think 
one of the most critical problems we have?
    Mr. Dodaro. I think there are a number of facets to it. One 
is, it is a large decentralized department and it needs more 
centralized direction and management. We have looked at their 
applications of technology over time and have had a lot of 
critiques that they need to improve their ability to be able to 
do it. Some of the procedures need to be streamlined. I mean, 
one of the classic cases where they have difficulties is in 
handling disability claims.
    And then there is an appeal process beyond that that could 
go on for a period of time. The coordination issues between DOD 
and VA can be greatly improved in electronic records and how 
they purchase drugs. There are a lot of opportunities for 
savings, but some of the fundamental problems I think are 
cultural, not having applications of technology and to have 
more centralized leadership.
    Mr. Farenthold. I look forward to working with you all on 
that. I see my time has expired. Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to my friend and colleague from Cleveland, Ohio, 
Mr. Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much. I want to thank the 
panel and welcome Senator Coburn, who I had the privilege of 
serving with in the House.
    Senator, you published what you called a waste book, I 
think it was in December, where you listed what you believe are 
the 100 most wasteful and low priority government spending 
programs in 2011, and in light of developments in this country 
with respect to oil and gas, where they are making record 
profits, do you think that these industries should continue to 
be rewarded with tax breaks and other benefits?
    There has been an argument that if you take away some of 
the breaks, it would affect gas prices, contradicted by these 
tremendous profits these companies are making, and the top five 
companies earned alone over $30 billion in profits in one 
quarter, and the American people are wondering how can this be 
and what about these breaks that they are getting. They 
certainly seem to qualify as a prosperous industry, and I would 
just like your comments on that.
    Senator Coburn. First of all, it is important to note that 
they get no tax credits; they get accelerated depreciation 
through intangible drilling costs. I think you have to look at 
it in two different groups: the very large oil companies 
integrated. They could probably do fine without the intangible 
drilling costs. What happens with those programs is they 
actually pay the same amount of taxes; it is just delayed, so 
the cost to the government is the time value of money, which is 
zero right now. So it really doesn't cost us anything.
    I would also note that their average income tax that they 
pay is 41 percent. That is the big five. That is what they paid 
last year, which is a good source for us and far above what the 
average tax increase is.
    I would be amenable to working on that. I think tax reform 
is something that we need to do. I think we need to have a tax 
program that we quit picking winners and losers in.
    Mr. Kucinich. The Department of Energy had a report called 
Cuts, oil and gas company tax preferences. There were eight 
proposals, one which has to do with repealing the expensing of 
the intangible drilling costs. And it seems that there would be 
a considerable amount of money that would be recovered by the 
Federal Government if they repealed that particular benefit, 
which I think is----
    Senator Coburn. Congressman, that is true in the short 
term, but that is not true over a 7-year period. There would be 
exactly the same amount of revenues going to the Federal 
Government.
    Mr. Kucinich. Well, on this one I would be happy to provide 
you with what I am looking at here. It says that from 2013 to 
2022, the expensing of the intangible drilling costs would be 
worth about $13.9 billion. I would be happy to show this to 
you.
    Senator Coburn. And, again, that is the Department of 
Energy's numbers. If you go and look at CBO's numbers or OMB's 
records or CRS's numbers, I think they will show you something 
different. The fact is that the average life of most of these 
wells is about----
    Mr. Kucinich. Well, I want to make sure that I----
    Senator Coburn. I would be happy to look at it.
    Mr. Kucinich [continuing]. Correctly. This is the 
President's budget that I'm citing under the Department of 
Energy. So in the President's budget it also says that the 
percentage of depletion for oil and natural gas wells would be 
another $11.4 billion if you repeal it from 2013 to 2022, and 
repealing the domestic manufacturing tax deduction for oil and 
natural gas companies over that same period of time would be 
worth $11.6 billion. I wanted to point that out to----
    Senator Coburn. The third one, though, is you are going to 
treat oil and gas different than you do every other 
manufacturer if you decide to do that. So I don't have any 
problem with a philosophical difference.
    What I will tell you, over a 10 year period of time, if in 
fact, as an accountant--that is my first degree--as an 
accountant, if you amortize an expense over a period of time 
versus taking it all up front, the only thing that is going to 
happen is we will collect more dollars up front, I agree with 
you. Over the long period of time we won't collect more 
dollars, but what you will do is for the lower capitalized oil 
and gas industry, the ones that are actually finding all the 
natural gas now, the smaller companies, what you will do is you 
will limit their capital availability and you will limit our 
exploration for oil and gas in this----
    Mr. Kucinich. Well, I could understand the sympathy that 
you have; you represent the smaller developers very well, but 
my question is back home in Cleveland I have people who are 
looking at $4 or $5 a gallon for gas and are wondering why are 
these oil companies getting these breaks, and the biggest 
breaks go to the biggest companies.
    Senator Coburn. Well, I think you would be better off 
addressing the speculation in the commodity markets, rather 
than try to--right now there is greater supply than there is 
demand for oil. What is happening? There is an international 
worry about Iran, which is a significant factor. We can 
eliminate speculation in this country, but you can't eliminate 
speculation worldwide.
    So the most important thing we can do if we want to address 
that $4 to $5 a gallon gasoline is make sure we have a domestic 
supply of energy, which we are capable of doing over the next 
10 to 12 years in this country, that will make us impervious to 
the impression and vulnerability of Middle Eastern oil.
    Mr. Kucinich. Mr. Chairman, my time has expired, but could 
I ask the witness, with unanimous consent, just ask the witness 
a followup question? I appreciate that. Thank you, for the 
members of the panel here.
    Could you tell us how much the speculation in commodity 
markets, do you have any idea what kind of a factor that would 
be in driving up the price of oil domestically?
    Senator Coburn. It would be a guess. It is an educated 
guess, but I would imagine we have $15 to $18 worth of 
speculation in the price of oil.
    Mr. Kucinich. Per barrel you are saying?
    Senator Coburn. Per barrel right now.
    Mr. Kucinich. Mr. Chairman, I know Senator Coburn is one of 
the most fluent people on these issues and I appreciate your 
presence here for that reason. This may be something that we 
want to look a little bit more closely at.
    I want to thank you for that, because $15 to $18 a barrel, 
what are we at right now? It is over $100 a barrel.
    Senator Coburn. It is $109.
    Mr. Kucinich. So that is quite significant. That is 
something worth looking at.
    Mr. Chairman, thank you for your indulgence.
    Thank you, Senator Coburn.
    Chairman Issa. I thank the gentleman.
    I will quickly recognize myself for a number of things.
    Senator, first of all, we have had a rash of your 
colleagues coming over here and not only giving testimony, but 
taking questions, so please tell your colleagues that it 
actually is a good thing.
    I am just going to quickly go through some numbers. Number 
of hearings held by this committee, starting with Mr. Davis: 
2003, 145, these happen to be the first year of each Congress, 
2005, 135, downward trend. Waxman, his 2-year period, the first 
year, 112; Towns, his 2-year period first year, 93; Issa, his 
first year, 122. I am not back to where we were under Chairman 
Davis, but we are heading in the right direction.
    Number of letters, which are minor hearings, if you will, 
under Mr. Towns, 122; last year under this committee, 748. We 
take seriously your point that we haven't been doing enough 
oversight. It has been a downward trend.
    Senator Coburn. Mr. Chairman, if I may?
    Chairman Issa. Of course.
    Senator Coburn. I think this committee does a great job, 
whether it is led by a Democrat or Republican. It has a great 
history, just like the permanent Subcommittee on Investigation 
in the Senate.
    The problem is not the Oversight Committee; the problem is 
every other committee in Congress that isn't doing their job, 
that doesn't know what they are doing, is not looking at what 
the agencies are doing and is not looking to see if what they 
planned in terms of legislation is actually being carried out. 
So it is not the oversight committees that I have a problem 
with, it is the fact that every other committee is failing to 
live up to what is required of them, which is to know what they 
are doing, and they don't.
    Chairman Issa. I appreciate that. Certainly, this committee 
has begun looking at the permanent Select Committee over in the 
Senate under McClelland, under both Republicans and Democrats 
for the work that they have done back in the 1950's.
    General Dodaro, a couple of quick things. First of all, 
thank you for delivering this in advance in paper, but 
digitally.
    In your estimation from audits that you have done, wouldn't 
it be reasonable to assume that every cabinet position should 
be able to deliver the vast majority of discovery or requests 
for FOIA in digital format, meaning is there any longer a 
reason for either a FOIA request or a congressional request, 
subpoena or not, to expect boxes of paper to arrive? I know 
Senator Coburn sees them arrive in his committee, just as I do.
    In other words, we paid for a lot of computers, and it 
seems like we get paper that was printed out of computers in 
response to discovery, and so to FOIA requests by the press.
    Mr. Dodaro. In consulting with our expert in this area, he 
informs me there is no reason that you shouldn't be able to 
receive virtually everything electronically.
    Chairman Issa. Which would save money because, both on the 
sending and, of course, on the receiving, the data mining 
afterwards.
    Mr. Dodaro. That is correct.
    Senator Coburn. Mr. Chairman.
    Chairman Issa. Yes, Senator.
    Senator Coburn. Just a note. We spend $38 billion a year on 
IT, of which $20 billion is wasted every year. Where is our 
oversight of that? The number one programs at risk that they 
have, the vast majority of them, other than some Defense 
contracting, are IT programs. That is where we ought to be. If 
you want to save money, let's start buying some off-the-shelf 
programs and make us adjust to them, rather than us design 
every new program, just like CMS just spent $77 million on a 
program that is not effective in terms of predictive payment.
    Chairman Issa. Thank you.
    Mr. Dodaro, you also referenced, I think indirectly, the 
work of the Recovery Board when you were talking about the 
potentials for recovery if we changed our systems, if you will, 
for how we tracked payments by both the payor and the 
recipient, and also the kind of predictive modeling that I 
think pretty much you are looking at the Recovery Board as the 
model for what we should be doing in Medicare, Medicaid fraud 
and mispayments.
    Mr. Dodaro. Earlier, I was talking about recovery auditing 
that is done after the fact, but as it relates to the Recovery 
Board, I think that their operations are very good. I was over 
there recently for an update on their Recovery Operations 
Center. I think there are additional data bases that they could 
get access to. I am going to try to do what I can to help them.
    Chairman Issa. And if you give us a list, we will do what 
we can to open those up.
    Mr. Dodaro. And some of that may need some legislation, Mr. 
Chairman. But I think that they have done a marvelous job and I 
hope that there are ways to find out how to make their 
operations more permanent once their temporary authority 
expires. I know you have legislation to do ,that and we are 
supportive of that.
    Chairman Issa. I am going to submit this one for the 
record. We have a series of whistleblowers who came in 
essentially making a claim that the Department of Defense 
routinely hires contractors and/or uniformed personnel, while 
not getting rid of or reassigning DOD civilians simply because 
the DOD civilians tend to be inflexible and they can grab a 
contractor or some uniform personnel to get something done 
quickly, rather than later.
    So I am submitting that for the record because I don't want 
a full study, but I would like your observations calling on 
personnel that are particularly familiar with that, because it 
seems like an area that we may want to follow up on, but I 
don't want to do it without your comments.
    Mr. Dodaro. Yes. Let me ask Janet to comment on it; she is 
in charge of our Defense work.
    Ms. St. Laurent. The one comment I would make initially is 
that the number of contractors, of course, associated with 
headquarters functions and money, entities of the Department of 
Defense, has increased and DOD does not have a very good handle 
on that data. So then it makes it very difficult for them to 
make informed decisions that also understand and reflect the 
cost implications of those decisions as they are deciding 
whether or not to staff positions with a government employee or 
a contractor. So it is an area we have done a lot of work on 
and we would be happy to provide additional information.
    Chairman Issa. I appreciate that. I am just going to ask 
one more because the Senator is here. This committee has 
continued to sort of have this nagging proposal of simply 
scrapping the Department of Veterans Affairs, making it 
effectively part of DOD, making the uniformed relationship, 
from the day you raise your right hand to the day you are 
buried at a military funeral, a single responsibility.
    Obviously, a major portion is health care, a situation in 
which I know you have done many reports showing us that 
essentially we still keeping talking about having a single 
interoperable data base and never get there so that a veteran 
might be treated or an active duty person may be treated 
without knowledge of other work done or other susceptibilities 
or problems. I know the Senator also has unique expertise in 
that, so any comments you would have on that.
    Senator Coburn. I am not sure I want to add anything to the 
Defense Department, with the significant problems that it has 
today. It does not deny the fact that the VA has problems.
    What we ought to be doing for our veterans, we promised 
them health care. Give them a card. They want to go the VA 
hospital, let them go to the VA hospital. But give them a card 
to go wherever they want. That is real health care. Give them 
the ability to seek the health care they want, rather than 
limit what they can have.
    You can do that in a very cost-effective way that would 
give them better outcomes, better availability, and better 
timeliness for their care. That is what we should be doing for 
our veterans. Let them decide where they want to go, don't 
funnel them in to someplace that we say they are going to go. 
Give them the freedom that they fought for.
    Chairman Issa. Thank you.
    And, by the way, when I say scrap and consolidate, you can 
go either direction; you can take all of health care in DOD and 
make it a single system that is led by VA, which is actually 
some of the suggestions we have had.
    Mr. Dodaro. Yes. I share the Senator's concern about adding 
anything to the Department. I think there is much more that 
could be done with the current relationship if there was proper 
leadership and a will to make it happen, particularly in the 
electronic records area, in looking at joint purchases for 
pharmacy issues, and dealing with health care issues.
    There may be organizational ways to get there differently, 
and we should be open to those; we should look for better ways. 
But I just think that there are many opportunities that could 
be focused on right now that we could get quicker action on, as 
well as looking for longer term reforms and of an 
organizational nature.
    Chairman Issa. Thank you. And I will not open up TriCare 
for Life, because that would take longer than even two 
sessions.
    Mr. Cummings, do you have another round?
    Mr. Cummings. I want to thank you, Senator, for being here. 
As I listened to your testimony, I concluded that there is not 
one syllable that you stated that I disagree with. I think the 
frustrating part about all of this is there was a song that 
said, you got me going in circles, and it seems as if we are 
going in circles, and I am trying to figure out how we get off 
the merry-go-round.
    To your credit, you have asked Mr. Dodaro and GAO to look 
at all of this information and gather this information, and I 
am just wondering where you see that leading. I guess what you 
are doing is saying, okay, let me present the information and 
it would be so glaring that maybe it will cause the Congress to 
get away from the privacy share, wherever we are in this 
circle, to do something.
    But where do you see that leading? Because I just have this 
thing about time and how you can go and do things over and over 
and over again, and you can be talking about the same things 10 
years from now; and we have a very limited amount of time to be 
here. I don't give a damn if it is 30 years or if it is 5 
years. So how do you see us getting off of that merry-go-round?
    Senator Coburn. Well, first of all, I think if we don't get 
off the merry-go-round in the next couple of years, we are 
going to get off the merry-go-round because the international 
financial community is going to make us do it. And I would much 
rather negotiate with you, Congressman Cummings, than I would 
the Chinese. I would rather work with you to solve these 
problems rather than us working with the Chinese when they 
start telling us what we will do and how we will do it, because 
that is where we are going.
    If Willie Sutton were here, he would rob the bank, and the 
bank is in duplication. And what has disappointed me, I am less 
disappointed with the House than I am the Senate. We have not 
done one thing in the Senate based on last year's report, not 
one single substantive thing. At least the House has brought 
out of committee a reform of job training program. That is 
$18.6 billion a year, which we know we can get better job 
training, match skills better to the needs of both the job 
offerers and those being trained for about half as much money.
    Well, that is $9 billion. Over 10 years it is 90. And what 
Mr. Dodaro and his staff have done is give us another 50 banks 
to rob, in other words, if we just do it.
    So the real key is leadership, whether it is Speaker 
Boehner or Leader Reid. If we want to solve it, we can solve 
these problems; we don't have to have a fight with the 
President. We can actually solve these problems among ourselves 
if we decide that we are going to solve the fiscal issues of 
our country. Not talking about it in big terms, but talk about 
it in the detail terms.
    Mr. Cummings. I saw this when, on the Transportation 
Committee, I chaired the Subcommittee on the Coast Guard and 
Maritime Transportation, and I am sure you are familiar with 
the Deepwater Project, where we were literally buying boats 
that did not float. As a matter of fact, they are sitting over 
in Baltimore right now, in the harbor, and we were buying 
surveillance systems that covered 180 degrees instead of 360, 
and buying radios that if they got wet they didn't work. I 
mean, I could go on and on.
    But in a bipartisan way we were able to straighten that 
stuff out in about 2 years, with no dissenting votes, because 
folks came together and worked together and resolved it. Now, I 
must admit the Coast Guard came kicking and screaming, but in 
the end I think they are a better organization because of it. A 
lot of it had to do with acquisitions. They didn't have people 
who were qualified to even write the contract.
    And I think the reason why we were able to do that is 
because everybody kind of came together and said, you know 
what, we are not going to have this. We are not going to be 
buying things that we didn't bargain for. We are not going to 
have equipment that is going to hurt our people; we are going 
to buy equipment that our people need to do their job.
    Everybody came together in a very patriotic way and said 
let's do it. How do we get there, though?
    Mr. Dodaro. Well, again, I really think it is leadership. 
If you and the chairman of this committee would take six or 
seven areas which are real obvious, I mean, when I go around 
the country or in Oklahoma and I say, there are 82 Federal 
programs designed for teacher training, and they say what? 
Nobody with any common sense would think we need 82 different 
teacher training programs. Eighty-two run by 12 different 
agencies, not even out of the Department of Education.
    So if you all would target seven or eight areas and have 
subcommittees and this committee say, okay, we want you all to 
become experts of this, how do we do it, and then send that 
information to the actual authorizing committees and then hold 
them accountable publicly for not fixing it, I think we can do 
it.
    The problem is we are fast approaching a time we are passed 
the tipping point, and we have a couple of years with which we 
can make critical decisions that we can come together and clean 
up a lot of this. All of it is well intentioned; none of this 
was not well intentioned. The fact is we just didn't know what 
we were doing when we were doing it.
    The other two things I think we ought to do is I think we 
ought to put metrics on anything we pass, that as a requirement 
of any program you have to have a metric associated with it to 
measure its effectiveness; and number two is you ought to 
sunset everything so that it forces you into reauthorizing, and 
when you reauthorize you are going to have the hearings which, 
in effect, will be oversight hearings, to say whether it ought 
to be authorized. Did it work?
    We have tons of programs in this country that are well-
meaning that don't help people, and some of them actually hurt 
people, and yet we haven't come together bipartisan to solve 
it.
    Going back to leadership, we are all Americans. We are in 
deep trouble financially. We have a significant problem with 
jobs. There are 600,000 jobs out there right now waiting in 
manufacturing and our job training programs haven't educated 
the people for them. Six hundred thousand that could be hired 
tomorrow. We have 47 job training programs spending almost $19 
billion a year and we didn't meet that need? That tells you 
there is some real problem.
    So we can do it as Americans, and that is what we need to 
focus on because, quite frankly, our survival, our economic 
survival depends on us getting together.
    Mr. Cummings. Just one last question, Mr. Chairman.
    You mentioned the Oklahoma job programs and I know we could 
cite all kinds of programs like what you just cited. Does that 
call for micro-managing, Senator? In other words, if you are 
going to have the leadership making sure that each program was 
doing what it is supposed to do, I guess there has to be a 
network of communication, too, so that if you do have any kind 
of duplication, it makes, not duplication. But if you have 
programs doing similar things, that it makes sense that people 
are communicating and saying, okay, you are doing this piece, 
you are doing that piece. But it seems like that that takes 
some real not only leadership, but some getting down in the 
weeds type leadership.
    Senator Coburn. Well, I think one of the defects with 
Congress is too often we write bills with very good intentions 
that actually are pretty good plans, and then we don't instruct 
the bureaucracy exactly what we intended, and then we let it 
flower from there. Oftentimes we know enough to get really 
specific about what we intend, and yet we fail to do that.
    I don't think we need to micro-manage anything, but you 
won't have to micro-manage if you take 47 job training programs 
and convert it to 6, and you say there is going to be a one-
stop shop, Federal programs, then you can go to one place in 
your State in every county and find every job training 
capability there. You shouldn't have to be bounced from program 
to program to program, and that is exactly what is happening 
now. Some programs are highly effective in some States and some 
programs, the same program, doesn't work at all.
    So it is not about micro-managing, it is about having a 
clear vision of what we intend, with clear instructions to the 
bureaucracy, and consolidating programs that do work and taking 
the best of those that do and making sure everywhere across the 
country, if it is Federal dollars and it is really our roll, if 
it is our roll, then making sure those dollars are spent well. 
That is oversight and putting the parameters on so you have a 
metric of how many people did you get trained actually got 
trained in the job they got.
    We found people being trained in Oklahoma for jobs that 
don't exist so they can collect the Federal bucks for the job 
training. Well, that doesn't help anybody.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We had intended on quitting at 11:30, but if there are any 
additional brief questions.
    Ms. Norton. Yes, there is an additional brief question.
    Chairman Issa. Ms. Norton.
    Ms. Norton. I thank you, Mr. Chairman.
    Perhaps for you, Senator, and for Mr. Dodaro, it is rare 
that you have the kind of agreement you have seen certainly in 
this committee. My own interest in issues like this is far more 
on how than what, because when you say words like duplication, 
it is pretty hard for people to raise their hands and be on the 
side of duplication, and yet it continues.
    I was intrigued by the candor of the Senator when he said 
Congress did it, so essentially Congress should undo the 
damage. And I am wondering the symmetry of that, though, 
Senator. The chairman cites lots of hearings and exposure is 
very important; that is one of the tools that Congress does 
have. When Senator Coburn, though mentions that it is not 
partisanship, it is elections, wow. That does suggest that 
there are structural problems here.
    And let me just cite the record. When Congress has found 
something important enough to have to meet it, look what it has 
done for trade and military matters. We have this notion that 
any Member of Congress hates where you vote up or down. We have 
military BRAC Base Realignment Closure Commissions and now we 
have two bills. Two committees here in the House have 
considered civilian BRAC. One is going to the floor and we are 
about to take to the floor the civilian BRAC bill of this 
committee, which tries to get rid of failure to sell or 
consolidate Federal properties.
    What else? Here is another example. When we created, and 
you can have your issues with this creation, the Department of 
Homeland Security, where we did something really quite 
extraordinary, which is bring a lot of agencies together, and 
look what you had something that was unprecedented; you had a 
strike on our soil by foreign parties.
    There are over 500 Members of Congress. Once they get their 
hands on an issue, they act like their constituents expect them 
to act, and sometimes that is to protect programs that in fact 
are included in this duplication. I am trying to get out of the 
quagmire and I would like you to speak more deeply on how we 
could, the administration has thought of something to do; it 
comes up with these up or down votes.
    Congress hasn't thought of anything like that to do. And if 
we are to get from the what to the how, it does seem to me that 
Senator Coburn's notion of we did it, we should undo it has to 
face the notion that Congress seems unwilling to do it unless 
somehow we were to do something structural ourself. Just like 
the administration did something structural to get this done, 
the Congress has not done anything structural and it continues 
not to be done.
    So I would just like to press you on, I accept entirely 
what you say about oversight. I even believe that exposure 
works, certainly on many issues. But I would like to press you 
on whether or not there is something more structural Congress 
could do that would grab hold of some of this duplication that 
we all agree is excessive and get rid of it.
    Senator Coburn. Well, this may shock you. I think we can 
all quit and they can send real Americans up here to actually 
do what common sense people----
    Ms. Norton. Short of that, Senator. Short of that, Senator.
    Senator Coburn. Well, but the fact is that is what the 
American people are repulsed by. Eighty-five percent of them 
know we are not doing our job, and the fact is we make a 
political calculation rather than a character calculation about 
the future of our country.
    Mr. Dodaro has given 176 recommendations, specific 
recommendations Congress can do. What did we do? We did two or 
three little bitty ones, nothing major. We didn't make any 
significant impact on the budget last year.
    Had we just reformed job training programs, one, we would 
have met a need in our economy right now that we did not meet; 
we would have saved $9 billion. How would that have added to 
your numbers, Mr. Dodaro, in terms of the for every dollar 
spent if we actually did that $9 billion revision and actually 
got a streamlined program?
    The fact is, it is not hard. What is hard is every program 
has a constituency.
    Ms. Norton. Right.
    Senator Coburn. And that constituency, as I have testified 
here today in job training programs, is too often those in the 
program, not those being trained by the program. So what we 
have to do is pay attention to what our goal was originally. 
And when we are more interested in the constituency of a 
program rather than the benefactors of the program, we are the 
ones that got it wrong, the American people don't. And what I 
think is we lack courage and we lack leadership to do what is 
in the best long-term interest.
    The final point I will make is we are short-term thinkers, 
not long-term, and we have created tons of problems because of 
that, and that goes to the political side of it as well as the 
policy side of it.
    And if we will start thinking in the long term about what 
is the best, right thing we can do for the country right now, 
what we will do is we will be Willie Suttons, we will go to the 
bank. He has given us 176 banks to rob, and we can come back on 
and actually make a big difference which will actually benefit 
the very constituencies that the programs were designed to 
benefit, rather than protect the program, which has no right to 
be here if in fact it is not effective in helping the 
constituency, the ultimate benefactor.
    Chairman Issa. Thank you.
    Mr. Connolly, are you finished? The gentleman is 
recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    Again I find myself in agreement with Senator Coburn. As 
somebody who ran one of the largest local governments in the 
United States, to me, metrics are everything. Why do it if you 
can't measure it? And I go back to this difference between the 
aspirational and the efficacious. As somebody coming from a 
local government background here to Congress, what I find is 
that many people who have spent their entire careers in the 
legislative branch either at the State level or here often 
think that by passing a bill, they have solved the problem, and 
it is as you say, often with the best of intentions.
    I will give you two examples of bills on a bipartisan basis 
that passed that nonetheless were almost impossible to 
implement at the local level. One was No Child Left Behind, 
full of good intentions, full of high aspirations, but very 
difficult to implement at the local level, and in some cases 
unintentionally actually do harm.
    And the other was the immigration reform bill that the 
previous president, President Bush, actually endorsed, and Ted 
Kennedy, on our side of the aisle, actively worked on with the 
President. Again, full of good intentions, but had it passed, I 
believe it would have been impossible to comply with; it was so 
complicated. I don't know how anyone thought that was going to 
solve the immigration problem, or even be easily implementable.
    So if we don't have metrics, I think all we can say it is 
good intentions, but they may or may not be working. And I 
completely applaud your point of view. Everything we do should 
be subject to metrics so that we know whether we are making the 
effect desired or not.
    Senator Coburn. Just a little point on that. When you put 
metrics into a bill without teeth, let me tell you what you 
get: no metrics. And my experience both in the House and the 
Senate is when you want to put metrics in and put some teeth 
with it so that they have to come about, you never get it. So I 
agree with you, but unless you put a consequence to not 
developing the metrics on the bureaucracy, you will not get the 
metrics, because they don't want to be measured.
    Mr. Connolly. Well, just a final observation. This 
committee has had a hearing, for example, take cybersecurity. 
The metrics we encouraged unwittingly in the legislation was 
training and awareness of the work force. So we had a series of 
hearings where agency after agency said we met the metrics; 80 
percent, 85 percent of our work force has been trained in the 
threat of cybersecurity.
    Well, the object is to deter cybersecurity attacks. That is 
a means to an end. So we allowed sort of an easy out in that 
metric because we picked the wrong metric.
    Mr. Chairman, I yield back. Thank you.
    Chairman Issa. I thank the gentleman.
    General Dodaro, Ms. Dalton, Ms. St. Laurent, you have done 
a wonderful job. We haven't asked you nearly enough questions, 
but we have taken a great deal of your time.
    Senator Coburn, I enjoyed the CPA exchange with the former 
mayor of Cleveland. I might add for the record that I was in 
the private sector when, in order to get NAFTA to meet some 
arithmetic need, they found some current revenue, which was 
that every small business in America that used to send a check 
in quarterly or periodically for their taxes was forced to wire 
transfer in every payroll period their taxes so the Government 
would get it that few weeks faster one time at a cost of 
hundreds of millions of dollars forever, since the 1990's.
    And yet, just like taking away depreciation until the end, 
when you can write off the whole end of the business cycle, we 
could score a one-time event, and it would be countless 
billions of dollars, no question at all.
    But as you said so rightfully, when the cost of money to 
the Federal Government is a fraction of 1 percent right now, 
taking that money out of the pockets by accelerating a little 
bit of contribution to the Federal Treasury isn't just penny-
wise and pound-foolish, it is trillions of dollars foolish to 
the people who need to amass capital in order to do the kind of 
work that they don't just do in oil; they do it in oil, they do 
it in manufacturing. And I would hate to see us do further harm 
to the legitimate depreciation schedules of everyone who brings 
wealth to America.
    So I join with you in the frustration that I don't think 
you have successfully explained that. I think that some will 
not yet know that depreciation is in fact real; it is money 
that is put out today and you only get a small part of it back 
over time. And unless you leverage that with debt, which is 
another problem in business that we encourage, you just don't 
get the kind of result you want for tax purposes. So hopefully 
on the Senate side you can continue to try to educate your 
colleagues. I will try to do the same.
    I thank you again. We stand adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]
[GRAPHIC] [TIFF OMITTED] 74037.072

[GRAPHIC] [TIFF OMITTED] 74037.073

                                 <all>

</pre></body></html>
